<html>
<title> - POLITICAL CHANGE IN CHINA: PUBLIC PARTICIPATION AND LOCAL GOVERNANCE REFORMS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                       POLITICAL CHANGE IN CHINA:


           PUBLIC PARTICIPATION AND LOCAL GOVERNANCE REFORMS

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 15, 2006

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov




                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

28-142                  WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

CHUCK HAGEL, Nebraska, Chairman
SAM BROWNBACK, Kansas
GORDON SMITH, Oregon
JIM DeMINT, South Carolina
MEL MARTINEZ, Florida
MAX BAUCUS, Montana
CARL LEVIN, Michigan
DIANNE FEINSTEIN, California
BYRON DORGAN, North Dakota

                                     JAMES A. LEACH, Iowa, Co-Chairman
                                     DAVID DREIER, California
                                     FRANK R. WOLF, Virginia
                                     JOSEPH R. PITTS, Pennsylvania
                                     ROBERT B. ADERHOLT, Alabama
                                     SANDER LEVIN, Michigan
                                     MARCY KAPTUR, Ohio
                                     SHERROD BROWN, Ohio
                                     MICHAEL M. HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                   STEVEN J. LAW, Department of Labor
                 PAULA DOBRIANSKY, Department of State

                David Dorman, Staff Director (Chairman)

               John Foarde, Staff Director (Co-Chairman)

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Goldman, Merle, professor emerita of Chinese history, Boston 
  University, Executive Committee member, Fairbank Center for 
  East Asian Research, Harvard University, Boston, MA............     2
Fewsmith, Joseph, Director, East Asian Studies Program, professor 
  of International Relations and Political Science, Boston, 
  University, Boston, MA.........................................     6
Xie, Gang, Senior Program Officer, Law and Governance Programs, 
  The Asia Foundation, Washington, DC............................    10

                                APPENDIX
                          Prepared Statements

Goldman, Merle...................................................    30
Fewsmth, Joseph..................................................    32
Xie, Gang........................................................    40


                       POLITICAL CHANGE IN CHINA:



           PUBLIC PARTICIPATION AND LOCAL GOVERNANCE REFORMS

                              ----------                              


                          MONDAY, MAY 15, 2006

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 10 
a.m., in room 2255, Rayburn House Office Building, David Dorman 
(Senate Staff Director) presiding.
    Also present: John Foarde, House Staff Director; Carl 
Minzner, Senior Counsel; Pamela N. Phan, Senior Counsel; 
William A. Farris, General Counsel; and Kara Abramson, Counsel.
    Mr. Dorman. Well, it is 10 o'clock. I think we can get 
started.
    On behalf of our Chairman, Senator Chuck Hagel, and our 
Co-Chairman, Representative Jim Leach, I would like to welcome 
everybody to this staff-led Issues Roundtable of the 
Congressional-Executive Commission on China.
    This particular roundtable is entitled, ``Political Change 
in China: Public Participation and Local Governance Reform.'' 
We are very pleased because we have an exceptionally 
distinguished panel to help the Commission understand this very 
important issue.
    But before we get to introductions, I would like to explain 
just briefly how our staff roundtables work. First, I will make 
a short statement to introduce the roundtable topic. Then I 
will follow with introductions for each of our witnesses. After 
each introduction, each witness will have 10 minutes to make an 
opening statement. After all the witnesses have been introduced 
and made statements, we will begin question and answers. Each 
person on the dais will have an opportunity to ask a question 
and hear an answer. We try to keep each round to five minutes, 
so that we have ample time for everyone to ask one or two 
questions. We will keep asking questions and hearing answers 
until 11:30 a.m., or until we run out of questions.
    I have been with the Commission a number of years now, and 
we have never run out of questions and answers before our 90 
minutes were up, so I am certain that we will fill the entire 
time. We will try to end promptly at 11:30, as we have promised 
our panelists today.
    I will start now with a short statement introducing the 
roundtable.
    More Chinese citizens want a voice in the decisions that 
affect their lives, and some activists have publicly called for 
change. 
Environmental activists have challenged the government on 
hydroelectric and other infrastructure projects. Intellectuals 
have submitted positions criticizing authoritarian policies, 
and rural farmers are forming associations to protect their 
collective interests. But Chinese officials use regulations, 
and sometimes prison terms, to suppress direct criticism of 
senior government leaders or Communist Party rule.
    At the same time, the government is experimenting with some 
limited governance reforms. These reforms seek expansion of 
citizen political participation at the local level, while 
giving the Party new tools to govern a rapidly changing China.
    This roundtable will review Chinese citizens' demands for 
greater political participation, examine official Chinese 
efforts at limited reform, and consider whether these trends 
offer any possibility for meaningful political change in China.
    I would now like to introduce our first panelist, Professor 
Merle Goldman, who has testified to the Commission before, and 
we are delighted that she has agreed to join us again. 
Professor Goldman is Professor Emerita of Chinese History at 
Boston University, and Executive Committee Member at the 
Fairbank Center for East Asian Research at Harvard University. 
Professor Goldman is the author of numerous books and articles 
on Chinese politics and citizen political participation in 
China, including her most recent book, ``From Comrade to 
Citizen: The Struggle for Political Rights in China.'' Other 
works include ``Sowing the Seeds of Democracy in China,'' 
``Political Reform in the Deng Xiaoping Decade,'' and ``China's 
Intellectuals: Advise and Dissent.'' In addition to teaching at 
Boston University, Professor Goldman serves as an adjunct 
professor at the U.S. State Department's Foreign Service 
Institute.
    Professor Goldman, thank you very much for coming today. 
You have 10 minutes for an opening statement.

   STATEMENT OF MERLE GOLDMAN, PROFESSOR EMERITA OF CHINESE 
  HISTORY, BOSTON UNIVERSITY, AND EXECUTIVE COMMITTEE MEMBER, 
 FAIRBANK CENTER FOR EAST ASIAN RESEARCH, HARVARD UNIVERSITY, 
                           BOSTON, MA

    Ms. Goldman. Thank you for inviting me. This is a great 
topic and I am happy to be able to talk about it.
    All of you know that China has had sweeping economic 
reforms and has had few political reforms. Most of you know 
about elections for village head and village councils. This is 
certainly an important political reform, but there have been 
others as well. For 
example, the fact that Deng Xiaoping decreed that the head of 
the Party can serve only two five-year terms means that when 
there was the transition from Jiang Zemin to Hu Jintao in 2002-
2004, it was the smoothest transition in Chinese Communist 
history. The reason for the Party's introduction of these 
political reforms was to bring about stability after the chaos 
of the Cultural Revolution.
    By contrast, my new book, ``From Comrade to Citizen: The 
Struggle for Political Rights in China'' focuses on political 
changes from below without the Party's sanction. I define a 
``citizen'' as one who asserts one's rights to participate in 
political affairs without being told to do so.
    During the Mao Zedong period (1949-1976), there was 
criticism of the Party during the 100 Flowers movement (1956-
June 1957) and China's Cultural Revolution (1966-1976) when Mao 
mobilized Red Guards to go out and rebel against the Party 
because he thought the Party was conspiring against him. In 
these two cases, Mao mobilized people to criticize the Party in 
efforts to enhance his own personal stature.
    What is different in the post-Mao period is that people 
assert their political rights without being ordered to do so. 
One group that asserted political rights was the members of the 
Cultural Revolution generation. These were the young people who 
Mao mobilized to rebel against authority, particularly against 
Party officials. When they caused chaos, Mao sent them to the 
countryside, where far away from authority, their parents, and 
the Party, they began to form their own groups, engage in 
discussions of political issues and question the political 
system.
    Thus after Mao died and they returned to the cities, they 
became the ones that led what came to be called the Democracy 
Wall Movement (late 1978-1979). They used the methods they had 
learned in the Cultural Revolution--putting up big wall 
posters, engaging in public debates, and printing and 
distributing pamphlets. They called for political reforms as 
well as economic reforms and they criticized the Marxist-
Leninist Party-state. Their demands called for some form of 
checks and balances so that China would ``never again'' be 
ruled by a leader with unlimited power.
    Deng Xiaoping allowed the Democracy Wall to continue off 
and on for almost a year because he used it in his effort to 
get rid of the Maoists still in the government. Once that was 
accomplished, however, he then cracked down on the Democracy 
Wall participants. Members of the other generation involved in 
trying to assert their political rights in the post-Mao era 
were the participants in the 1989 Tiananmen demonstrations, 
which spread to virtually every city in China. Again, the Party 
sent the military to crack down on them very severely on June 
4, 1989.
    Although the Party arrested the leaders of these two 
movements, China released most of them in the mid-1990s in an 
effort to get the Olympics in 2008. Their release is an example 
of how external pressure can bring about some kind of change in 
the policies of the Chinese Communist Party. Another example of 
the result of external pressure is China's signing of the two 
UN covenants: the one on economic and social rights in 1997 and 
the one on political and civil rights, in 1998. Though the 
first covenant has been ratified by China's National People's 
Congress, the second has not yet been ratified.
    While Mao did not care what the outside world thought of 
what he did, China's post-Mao leaders do care. They want to be 
accepted in the international community and be seen as playing 
by the rules of the international community. It does not mean, 
however, that the Party is going to change its policies because 
of external pressure. But Chinese who seek to assert their 
political rights refer to Chinese signature on these covenants 
as well as Article 35 in the Chinese Constitution that calls 
for freedom of association and freedom of expression as the 
basis for their actions. A similar approach was used by 
dissidents in the former Soviet Union and Eastern Europe in the 
1970s and 1980s, who used the fact that the Soviet Union had 
signed the Helsinki Accords as the basis for their demands for 
human rights.
    The release of political prisoners of the Democracy Wall 
and 1989 movements led to new kinds of political actions in the 
1990s. In my book, I describe, for example, the effort to 
establish an opposition political party in 1998 called the 
China Democracy Party.
    The leaders of this party were veterans of the Democracy 
Wall and 1989 Tiananmen movements, in alliance with small 
entrepreneurs, farmers, and workers. It is the first time in 
the People's Republic that intellectuals joined with other 
classes in some kind of political action.
    This effort to establish an opposition Party continued for 
almost six months before the Party cracked down. In part, this 
movement was able to get off the ground because at the time of 
its inception in June 1998, China hosted a stream of important 
foreign officials. Also, the China Democracy Party founders 
used procedures to register their party that were used to 
register NGOs. They registered the China Democracy Party as a 
local NGO in Hangzhou and then registered it as NGOs in cities 
along the coast and then inland. Next, they registered it as a 
regional NGO in China's northeast and the plan was eventually 
to register China Democracy Party as a national NGO. They were 
able to get this movement organized so quickly through use of 
the new technologies, particularly the Internet and cell 
phones. They had codes of communication that got around the 
Party's censorship and filters.
    The emergence of this multi-class effort of intellectuals, 
small business people, workers, and farmers is unique in the 
People's Republic. The intellectuals during the Mao period as 
well as during Confucian times saw themselves as a class apart 
and did not seek to join with other classes in political 
actions. When workers tried to participate in the 1989 
Tiananmen demonstration, for example, the students refused to 
let them join their demonstration and isolated them in an area 
away from their movement. The China Democracy Party leaders not 
only saw themselves as an elite group, but they also knew that 
ever since the emergence of the Solidarity movement of 
intellectuals and workers in Poland in 1980 that helped to 
bring down the Polish Communist Party, the Chinese leadership 
feared such an alliance of workers and intellectuals in China. 
It could be that having already lost their elite status because 
of their political activities, the leaders of the China 
Democracy Party felt they had nothing to lose by joining with 
other classes.
    Therefore, it is likely that the forces pushing for 
political reform in China at the start of the 21st century will 
be similar to the coalition that attempted to establish the 
China Democracy Party--some alliance of disestablished 
intellectuals with workers, small entrepreneurs, and farmers. 
It will not be the bourgeoisie, an independent middle class, 
that we associate with rise of democracy in the West. At 
present, China's rising middle class is not independent. 
Because China's newly rich entrepreneurs have to rely on the 
help of local Party officials in order to get access, for 
example, to land, licenses, and resources, they are dependent 
on the help of local Party officials. Moreover, as soon as they 
become successful, they are quickly recruited into the Party. 
Therefore, it is other members of China's new middle class--
journalists, defense lawyers, academics, and disestablished 
intellectuals, who support themselves as free-lance writers, 
small entrepreneurs, or workers who have been the leaders for 
political reform.
    In particular, the leaders of the Democracy Wall and 1989 
Tiananmen movements in alliance with small entrepreneurs, 
workers, and farmers, whom, I believe, will be a force for 
political change in China in the future. How long it will take, 
I will not say, but I think that change is already underway on 
the ground.
    I conclude my book with examples of how the concept of 
political rights has spread beyond the intellectual class to 
the population as a whole. Actually, I witnessed one such 
example in a protest of farmers on the outskirts of Xi'an in 
front of the Big Goose Pagoda in 2004. The farmers were 
demanding their rights to land that had been taken away from 
them for modernization projects. A group of farmers held up 
wall posters, which said: ``You have taken away our land; we 
have not been compensated,'' or ``We have not been compensated 
enough.'' And the posters declared in big bold letters ``We 
want our rights.'' This is just one example of how the concept 
of rights is moving beyond the intellectual class to the 
population at large.
    Kevin O'Brien, a political scientist at Berkeley, points 
out that people ``act as citizens by their actions.'' Yet, what 
is happening in the early 21st century is that Chinese farmers 
and workers are also acting as citizens in what they say. 
Rights consciousness is spreading to the Chinese population at 
large. Thus, I will end on this optimistic note. I believe, as 
we have seen in other post-Confucian countries--Japan and South 
Korea--and also in Taiwan, that political changes are beginning 
in China due primarily to pressure from below. Of course, China 
is much bigger, much more complicated, and has had less direct 
contact with Western democratic countries until the past few 
decades than the other post-Confucian countries. It may take 
longer than in the other post-Confucian countries. 
Nevertheless, the beginning of a rights consciousness that has 
spread beyond a small group of intellectuals to the population 
as a whole, I believe, is the beginning of that change.
    [The prepared statement of Ms. Goldman appears in the 
appendix.]
    Mr. Dorman. Professor Goldman, thank you very much for a 
very timely statement, I think, and it will certainly generate 
lots of questions on the panel. Thank you for that.
    Next, I would like to introduce Professor Joseph Fewsmith, 
who is the Director of East Asian Studies Program and Professor 
of International Relations and Political Science at Boston 
University. Professor Fewsmith is the author of numerous books 
and articles on Chinese politics and political reforms, 
including ``China Since Tiananmen: The Politics of 
Transition,'' ``Elite Politics in Contemporary China,'' and 
``The Dilemmas of Reform in China: Political Conflict and 
Economic Debate.''
    Professor Fewsmith, thank you very much for agreeing to 
testify to the Commission again. You have 10 minutes. Thank 
you.

 STATEMENT OF JOSEPH FEWSMITH, DIRECTOR OF EAST ASIAN STUDIES 
  PROGRAM, PROFESSOR OF INTERNATIONAL RELATIONS AND POLITICAL 
             SCIENCE, BOSTON UNIVERSITY, BOSTON, MA

    Mr. Fewsmith. Thank you very much for inviting me back to 
testify to the Commission. I respect your work, and you ask 
good questions. If I make my statement long enough I will not 
have to face too many of your good questions. [Laughter.]
    My good colleague, Professor Goldman, tends to focus on 
activists who are bringing about, or trying to bring about, 
political change in China. They are, if you will, an external 
force that tries to force the Party to make positive changes. 
Over the last year or so I have been focusing more on what the 
Party itself is doing.
    As we all know, Chinese society is a pluralizing, 
economically 
diverse society and it, in many ways, simply does not match an 
old-style, hierarchically organized Leninist, Communist Party. 
The Party itself understands that and is beginning to do a 
number of things to meet the change that is coming not just 
from activists, but from all sorts of actors in society.
    Some of the reasons for the changes that I see, and I will 
get to those changes in a second, are the results of village 
elections. That is one thing. It is not so much the village 
elections themselves, which have been somewhat criticized, I 
think, in China recently. Those on the right are disappointed 
that they have not led to raising the level of elections to the 
township or to the county level; those on the left criticize 
the elections for allowing village power to fall into the hands 
of the new local elite, the moneyed elite. But what the 
elections did was, first and foremost, to introduce a 
principle: that people have the right to choose their own 
leaders. Second of all, it gave the village chief, the 
government side of the local government structure, a legitimacy 
that the Party secretary did not have. That has set off 
frictions at the village level and above, and those tensions 
have forced the Party in some ways to respond to this pressure, 
and to a limited degree to begin to look at ways that can 
incorporate popular mandates into its own rule. So, elections 
are one factor.
    Another factor is generational change. Generational change 
is also important, not because younger people are necessarily 
brighter, though many in the younger generation in China are 
far better educated than their elders, but because a first 
generation revolutionary elite has a certain legitimacy that 
comes from the victory of the revolution. As you pass to the 
second, third, or fourth generation, depending on how you are 
counting, there arises an inevitable political question that 
all political systems must face: Why do you have power and why 
do I not? What gives you the legitimacy? As you go through 
generational change, I think those sorts of questions become 
much more pointed.
    Third, as we all know, there have been a lot of problems 
throughout China in terms of corruption and abuse of power. 
There is a need to supervise the local political leaders. This 
is a need that is felt both by the center of the system, as 
well as by the citizen. In that sense, there is a somewhat 
strange collaboration between the center of the Party, the 
Party-State leadership, and the citizens of China who want to 
bring about a more orderly, more supervised, more regularized 
use of political power at the local level.
    Finally, I would agree with Professor Goldman that there is 
a changed consciousness in China. This is really very difficult 
to define, and I have not seen really good survey research on 
this yet, but I think it is quite palpable.
    In part, this is because more people have greater wealth; 
once the stomach is a little full, you can think about other 
things. But it is also because of greater mobility in the 
society. Many people throughout the country, perhaps 
particularly along the east coast, but I think throughout the 
country, have traveled to other places and they pick up ideas. 
One channel of those ideas, by the way, has been army soldiers 
who have been recruited, trained, and assigned to serve in 
other places, and then they come home to look at the abuse of 
power at the local level. Their experience seems to give them a 
greater confidence to confront abuses. Others on the move 
around the country are merchants who have gone to other places, 
and bring back new ideas. So there are a lot of reasons.
    So what are the types of political change? In the written 
statement that I have submitted to you, and I will spare you 
the agony of listening to me read it, I point to two broad 
types of change. This is somewhat arbitrary, but perhaps is a 
useful first cut. One is an effort to readjust the relationship 
between the Party and actors in the society, and the other is 
inner-Party democracy.
    First, on the readjustment of relations between the Party 
and society, I cite two examples. One, is the rise of chambers 
of commerce. This is by no means a universal phenomenon. The 
chambers of commerce, which is another name for the 
Gongshanglian, or the All-China Association of Industry and 
Commerce. In the North China Plain, chambers tend to be very 
weighted down with official dominance. They tend to be not very 
active and not very interesting, although there are some 
interesting private associations that are growing up apart from 
these official chambers.
    In southern China, and particularly in the city of Wenzhou, 
chambers of commerce have become quite active, and they are 
very interesting. As you undoubtedly know, Wenzhou became 
famous in the 1980s for its model of private entrepreneurship, 
and it is really a fascinating phenomenon to watch this 
previously extremely poor, overpopulated area just take off 
economically.
    My first trip to Wenzhou was actually last year, and it was 
really interesting. This is a modern city of about 5 million 
people. It may not be on Shanghai standards, but it has got all 
the designer stores, broad highways, and the merchants are 
doing quite well.
    A significant number of the chambers of commerce there have 
been developing ``outside the system,'' as they say in China. 
That is to say, business people in a particular line have been 
grouping together for a variety of purposes. One, of course, is 
to ensure quality control. This initially started, as I 
mentioned in my statement, because Wenzhou merchants not only 
became famous for producing cheap goods in the sense of price, 
but also ``cheap'' in that derogatory sense of not being very 
good.
    When angry residents of Hangzhou burned 5,000 shoes, it 
motivated the shoe manufacturers in Wenzhou to want to do 
something about it, and a chamber of commerce was the answer.
    In many instances, these chambers can work with government 
to come up with policies. So there is a collaboration between 
government and the private sector that simply did not exist a 
few years ago.
    Much more interesting, I think, in terms of the sorts of 
change that you are looking at, is north of Wenzhou there is a 
city called Wenling, 1.1 million people, and they have been 
doing something that they call ``democratic consultative 
meetings,''--minzhu kentan hui. They are very much like the 
public hearing systems that you are familiar with.
    In most of these villages and townships under Wenling, you 
put up a poster announcing a hearing on paving a road, or 
building a separate business district, or building a school, or 
whatever. In other words, these hearings revolve around capital 
construction projects and the use of public funds, and anybody 
who is interested may come.
    That has, I think, brought limited, but important, change. 
Issues are aired publicly. Government officials feel at least 
some pressure of being supervised. That is a model that I think 
is being touted quite a bit throughout China these days. I have 
not yet seen it spread, but I am reasonably optimistic that you 
will see similar phenomena cropping up in other parts of China.
    My initial inclination was to write off inner-Party 
democracy as an excuse to avoid the real thing. To a certain 
extent, that is true. Yet, the more I have looked at this 
phenomenon, the more I have thought that there is something 
interesting going on here. Moreover, if you are going to match 
some of the pressures that are going on at the local level, the 
Party itself needs to become, at least in some ways, more 
democratic, by which I mean conducting its affairs in a more 
open and transparent manner.
    Now, there have been a number of interesting variations on 
this. The permanent representation system is one system that is 
being adopted in a large number of places in China.
    According to the Chinese Communist Party's own 
constitution, the Party Congress is supposed to be the most 
authoritative organ; it selects the central committee or the 
relevant Party committee at different levels, which then picks 
a standing committee, which picks a secretary. But, of course, 
the way it has worked in the past, is that the Party committee 
meets, they are told who to vote for, they vote, they go home 
the next day and they are gone. It is a very honorific sort of 
function.
    Now the effort is to extend the terms of Party delegates to 
make it a full five-year term with annual meetings. The whole 
purpose of this is to readjust the relationship between these 
Party representatives, the various committees, and to exercise 
some real 
supervision.
    This is still a fairly new system. The earliest that I know 
of dates back to 1988. More recently, you have had some from 
the mid-1990s, and particularly the early 2000s. But on the 
other hand, it has become extended throughout several parts of 
China and has some potential.
    I think time is running a bit short. Let me just mention 
the ``public promotion, public election''--gongtui gongxuan--
system, which has been predominantly practiced in Sichuan, 
although there are parts of Jiangsu Province that have done 
this as well.
    Gongtui means to publicly promote or to publicly recommend. 
In different areas, this takes on different forms. It could be 
simply that all Party members in that area participate. That 
is, of course, a very limited type of political participation, 
but a lot more than you used to have. In other areas, it does 
mean public. That is to say, particularly at the village level, 
that all villagers might say, ``Of all Party members here, who 
would we recommend as the Party secretary? '' So, again, there 
is this effort to incorporate at least a degree--I do not want 
to exaggerate, but a degree--of public will to legitimize the 
selection of the Party secretary.
    So what are the implications of all of this? First of all, 
you are introducing at least some limited democratic principles 
into the Party, at least at the local level. By ``local 
level,'' I mean, at the village and township level. I have not 
yet seen this reach up to the county level.
    This expansion to the township level is interesting 
because, as I mentioned at the start, the village elections 
have not been extended to the township level--except in a few 
instances--so they seem to be taking sort of a circuitous route 
to introduce at least limited democratic principles at a higher 
level, but in ways that do not threaten the Party itself.
    This system appears to be a controlled introduction of 
political participation. That is, I suppose, the second point, 
is that the Party is not losing control. The Party is still 
very much in control at all levels of society, but it is 
beginning to change in limited ways and at the local level.
    Now, the question that I suppose that you are really 
interested in and which I really cannot answer, is: Is this a 
step toward 
democracy or, perhaps, a step away from democracy? My 
inclination is to think that what is happening is that new 
mechanisms are evolving that will, at least to a limited 
extent, relieve social pressure, re-legitimize the Party, at 
least to a certain extent, and alleviate some of the pressures 
to implement Western-style democracy.
    Is this good or bad? If it leads to better governance and 
more political participation, that would seem to be positive. 
Whether this ultimately leads to something of a more thorough-
going democratic nature is very difficult at this point to say. 
It may, as I just noted, in some way alleviate pressures to do 
precisely that.
    [The prepared statement of Mr. Fewsmith appears in the 
appendix.]
    Mr. Dorman. Professor Fewsmith, thank you very much once 
again for a very useful and interesting statement.
    Our next panelist is Mr. Xie Gang, who is former Senior 
Program Officer, Law and Governance Programs, for the Asia 
Foundation. Mr. Xie has managed and supervised Asia Foundation 
projects in mainland China for the past six years. The Asia 
Foundation conducts projects in China directed at improving 
rural governance, government accountability, legal reform, and 
the conditions facing migrant women workers.
    Mr. Xie, you have 10 minutes for an opening statement. 
Thank you for agreeing to testify.

    STATEMENT OF XIE GANG, SENIOR PROGRAM OFFICER, LAW AND 
    GOVERNANCE PROGRAMS, THE ASIA FOUNDATION, WASHINGTON, DC

    Mr. Xie. Thank you for inviting me to speak here. It is an 
entirely different experience for me.
    What I would like to talk about is my own experience and 
observations of The Asia Foundation's rural governance programs 
in China.
    In the past four years, we have been providing grants to a 
number of grantees with U.S. Government money and private money 
to work on improvement of rural governance in China. We first 
started off our programs to look for some alternative dispute 
resolution mechanisms. That is where we did programs to look 
into the types and causes of the rural conflicts. I have listed 
those programs in my statement.
    The first program was a survey. After we did the survey, we 
felt that the problems were not just as simple as providing 
solutions to reconcile conflicts. It looked like more of a 
structural problem with the rural governance, especially at the 
township level.
    So, our following programs turned into some sort of effort, 
on the governance side, to try to improve the governance by 
holding the government more accountable. That is where we have 
some programs to look for some mechanisms for more 
transparency, for better management, standard procedures that 
the farmers could follow or the local governments could follow 
in providing public services, and that is where we did those 
programs.
    We also provided training for those farmers who tried to 
complain and petition to the government about their problems, 
where their rights had been disrupted. Also, we tried to train 
some township employees so they could better interact with the 
farmers when the farmers came to petition and complain.
    On the farmers' side, we also tried to provide some kind of 
assistance by helping set up farmers' associations. That is 
where we 
provided a grant to look into the existing types of farmers' 
associations, especially in areas like Hunan province where 
most of the farmers try to protect their rights and have most 
of the problems.
    Then after the survey, we felt that farmers' associations, 
at that time, about three years ago, could be politically 
sensitive. So we and our grantees came up with the idea that we 
would focus more on the farmers' production cooperatives. Our 
grantees hope, in the long run, that such cooperatives could 
evolve into some type of farmers' organizations that may help 
protect their rights and help improve local governance.
    About my observations, I have listed some of them in the 
statement, but I would like to talk more about my observations 
of current situations, because most of our programs were 
implemented before the agriculture tax was abolished. Now that 
the agriculture tax has been abolished, we want to look at what 
is going on in rural areas, and how will that affect local 
governance and political reform in rural China.
    From our experience and programs, it can be summarized 
that, in general, there are two types of conflicts. To put it 
in the farmers' words, one type of conflict is caused by the 
fact that local cadres do things they are not supposed to do. 
The other type of conflict is caused when, the farmers say, 
local cadres do not do what they are obligated to do. Our 
programs are actually looking to the first one. Currently, most 
of the conflicts belong to the second type.
    After the government introduced a new agricultural policy 
to protect farmers' rights, and abolished the tax, it looks 
like the actions of the grassroots government have been 
restrained more by the central government and they have to 
follow certain types of rules and regulations. However, these 
new policies have not really helped change the local governance 
or improve the functions of the grassroots government. For 
example, there have been new types of conflict since the 
agriculture tax was abolished.
    The first type of conflict was caused by a number of 
farmers who had been paying the tax for many years and were not 
happy with those farmers who had not paid taxes. They were 
complaining. Farmers who had been paying the tax were not happy 
after the tax was abolished because they felt they did not 
enjoy equal treatment, and they had been following instructions 
and paying the taxes all along. Those who had not been paying 
the taxes had gotten away with it. So, that could be another 
new type of conflict.
    The other conflict is farmers who had given up their land 
because they did not want to pay tax for many years, though 
they went into other areas and were involved in other 
businesses. Now that tax is abolished, they want to come back 
and get the land they had given up, but they cannot sometimes. 
That is another type of conflict.
    The third, of course, is after the tax was abolished, the 
local government has tremendous financial problems. They are 
now short of revenue. They used that as a pretext to stop doing 
some of the public services that they are supposed to provide, 
and farmers now complain that the cadres do not do things that 
they are supposed to do. So, that is another type of conflict.
    Personally, I think this problem in rural areas is actually 
rooted in the long history of under-investment in agriculture. 
Even throughout the 50 years after the People's Republic was 
founded, agriculture has been very much under-invested, and 
farmers have just been left alone to look after their own 
production and well-being. Because of all these years without 
enough investment, 
agriculture is under-developed. Before the agriculture tax was 
abolished, it only accounted for 4 percent of the central 
government revenue. Last year, agriculture only accounted for 
12 percent of GDP, including animal husbandry, fisheries, and 
forestry.
    So agriculture is somehow insignificant in Chinese economic 

development, and it has been neglected for a long time. That 
kind of under-investment has caused all these financial 
problems, and that could be a very basic reason for the lack of 
good governance in the countryside.
    Also, for the township government, there seems to be an 
intention to reform agencies at the grassroots level. However, 
the township government is now challenged with many problems.
    The very fundamental problem, I think, is the fact that it 
has been given too many functions since the day it was born, 
because the township government is the lowest level of Chinese 
governance structure, and it has all the functions that all the 
higher levels of government are given.
    It has the function to develop the local economy, it has 
the function to work on United Front and Party Central 
Committee issues, and also it has family planning, tax 
collection, and all these functions. But it does not have 
enough revenue to work on these functions, so it has been a 
structural problem since the day it was established after the 
People's Commune was abolished.
    The second problem, of course, is that the township 
government is now over-staffed. Because of so many functions, 
it has a large staff body. To reform the township government 
means to lay off a large number of cadres.
    So what can we do about this? Scholars have been discussing 
abolishing the township government. Also, there are many other 
pilot experiences to improve the local governance.
    But I think the final solution to the improvement of local 
governance should be focused within the structure of the 
township. In other words, the reform has to be initiated within 
the current political framework. There is also a strong force 
within the government to start reform. But the problem is how 
to initiate the solution to the problem and which way they can 
go.
    The other problem is to improve the farmers' awareness, 
because the government talks about protection of farmers' 
rights. But the farmers' rights have to be eventually protected 
by themselves. I do not think there can be immediate political 
reform. It has to be a long-term effort. Thank you.
    [The prepared statement of Mr. Xie appears in the 
appendix.]
    Mr. Dorman. Good. Thank you very much, Mr. Xie.
    I will start with a series of short questions for the 
panelists.
    Professor Goldman, thank you again for speaking to the 
Commission. It is greatly appreciated. I wanted to ask, if we 
could look out over the horizon, what are the possibilities, 
and what sort of conditions would have to develop, for another 
China Democracy Party to emerge?
    Ms. Goldman. It would be necessary to have leaders in the 
People's Republic of China who were willing to countenance what 
is already happening on the ground. An ideal scenario would be 
to have a leader comparable to Chiang Ching-kuo, who, when he 
came to power in 1987 after the death of his father, Chiang 
Kai-shek, recognized the changes that were occurring on the 
ground--a more open press, civil society and beginnings of 
organized political groups--and confirmed the reality of 
democratic institutions that were already functioning.
    In other words, I think it is going to be very difficult to 
get an opposition party off the ground in China as long as the 
Communist Party retains its legitimacy and capacity to repress 
any protest. If there should be some slowing of the economy, 
which we have not yet seen, that could undermine the legitimacy 
of the Party, which is based on its ability to maintain a high 
rate of growth. Also, if the Party is unable to slow the 
increasing disparities between the urban and rural sectors and 
deal with the issues of education, healthcare, and social 
security in the countryside, that too may provoke growing 
protests that have been estimated at 87,000 in 2005. Though the 
Taiwan scenario is rejected by the leaders as well as ordinary 
people in the People's Republic, China would be fortunate to 
follow the Taiwan trajectory. There is no question that Chiang 
Kai-shek and the Kuomintang were very repressive when they 
retreated to Taiwan in the late 1940s, but in the early 1950s, 
they began village elections and then moved grassroots 
elections up the political ladder to the township, the 
counties, the provinces levels and finally national level. 
China introduced village elections in the late 1980s, but with 
a few exceptions, elections have not moved up to higher 
political levels. It is likely that the leadership fears 
elections at the township level, for example, because, in order 
to have township elections, it is necessary to organize 
politically, because a township encompasses several thousand 
inhabitants rather than the 900 or so inhabitants of a village 
in which everyone knows one another. There is more freedom of 
expression in China today than during the Mao era, but the 
regime cracks down severely on any unsanctioned efforts to 
organize politically. What the Hu Jintao government fears most 
is the establishment of any political organization outside the 
control of the Party.
    Mr. Dorman. Good. Thank you.
    Did either Professor Fewsmith or Mr. Xie want to comment? 
You do not need to.
    Mr. Fewsmith. Why do I not wait for the next question?
    Mr. Dorman. All right. Good. Thank you.
    Mr. Fewsmith. Then maybe I can pick up some things.
    Mr. Dorman. Well, this is a question that goes both to 
Professor Fewsmith and Mr. Xie. I had the opportunity to read 
your written statement just before the roundtable, Professor 
Fewsmith, and you point to the importance of political 
entrepreneurship at the local level.
    In Mr. Xie's written testimony, he describes a real lack of 
that sort of capability at the township level.
    Could either or both of you comment on the reasons that 
political reforms have not moved from the village to the 
township level? To what extent is this due to a lack of 
enlightened political leaders at that level, as Mr. Xie 
describes in his written testimony, or is this being blocked 
from the center?
    You may not have had the opportunity to read Mr. Xie's 
statement, and I do not want to misquote, but I think he was 
fairly disappointed with the capabilities of officials at the 
township level. Could you comment on whether this lack of 
political entrepreneurship is one reason we have not seen 
political reforms move up one level?
    Mr. Fewsmith. All right. Let me try to generalize a little 
bit from some of the examples that I know. First of all, as 
Professor Goldman just said, the Party is very strong. If you 
would like to have a political experiment at a particular 
level, you really do need to have the support, at least the 
tacit support, of higher-level political leaders. If you just 
decide to have a local experiment, your career is not likely to 
last very long. If you push it way beyond that, you may find 
yourself in some serious trouble.
    One of my first observations is that the sorts of political 
reforms that I was addressing in my statement do have at least 
the tacit political support of the Party, specifically of the 
Organization Department of the Party, which undoubtedly is a 
very conservative organ, but it is also extremely well aware of 
what is going on. They are not stupid. They do surveys, they 
understand the tensions, and they are trying to devise 
solutions to those while maintaining the structure of the 
Party. That statement applies both to the Central Organization 
Department, which has carried out a lot of surveys and has had 
a lot of discussions on these sorts of issues, as well as local 
organizations.
    So, for instance, I think there is quite a bit of evidence 
that the provincial Organization Department in Sichuan province 
has been very supportive of some of the experiments that I have 
been talking about. I know that the sorts of experiments that I 
was talking about on consultative democracy in Zhejiang 
Province have had the support of the political leadership at 
higher levels.
    So it is a certain combination of a willingness to be 
entrepreneurial, to try things out, to say, ``Let us do 
something,'' but also an ability to secure the recognition, the 
approval at higher levels that, ``Look, if we do this, it will 
solve this, this, and this problem, and will not create more 
problems than it will solve.'' So, there is something of a 
framework there.
    I think China is an extremely big place, and almost no 
statement is true of the whole place. So, yes, at the township 
level I think you can find a lot of problems with political 
leadership.
    Most of the reforms I have been talking about are actually 
supported at the city and county level, if not higher, and 
implemented at the township level.
    But I do think that you have a lot of pressure on, and 
willingness from, lower level cadres to do things. They say, 
``Boss, we are facing problems, we need to do something.'' So 
there is a certain bottom-up pressure, and sometimes the higher 
levels will support that, sometimes they do not. One of the 
things I mention in my paper is that I think you see more 
political reform in Wenling, whereas you see more ``civil 
society'' in Wenzhou. Well, how do you explain this? Well, 
Wenzhou is a very big, important, economically powerful city. 
Just the term ``Wenzhou model'' is very evocative throughout 
China. You start doing political reforms there, that is going 
to set off some real tremors.
    So I think--I do not know, but I think--that is one reason 
why you see chambers of commerce and so forth restricted to 
certain delineated roles, and you are not doing other types of 
political reforms is because of the size and importance of a 
city like Wenzhou. Whereas, if you take a smaller city like 
Wenling and you say, ``If it does not work, nothing bad is 
going to happen,'' then you can experiment more freely. So it 
is a combination of local society, local leaders, and higher 
level leaders.
    Mr. Dorman. Good. Thank you very much.
    Mr. Xie, did you want to comment?
    Mr. Xie. Yes. I just have one comment. I think, from the 
central government, it does not really have a sense of 
direction where to go, and whether or not it has the resources 
to do it.
    Also, China is so large and also so much centrally 
controlled, if the provincial government has more room for its 
own policies, I mean, political reform may be easier to start 
at the local level.
    Mr. Dorman. Good. Thank you very much.
    I would like to turn the questioning over to my colleague, 
John Foarde, who is House Staff Director for Co-Chairman Jim 
Leach.
    John.
    Mr. Foarde. Thank you, Dave. Thanks, too, to all three of 
our panelists for coming this morning and sharing your 
expertise with us. Our Commission members appreciate it, and we 
on the staff appreciate it very much.
    I, too, have two or three relatively short questions. I was 
struck by a comment, Professor Goldman, in your statement that 
the sense that this popular rights consciousness is really a 
bottom-up phenomenon, it is bubbling up from the bottom. Yet at 
the same time, as Mr. Xie was mentioning, we see a lot of top-
down orders coming down from the Party and down from the 
central government.
    I find it personally a little bit ironic that, in the 
context of WTO implementation and compliance, the U.S. 
Government has been looking to the central government in 
Beijing to push compliance down from the central level to the 
provincial, and then to the local.
    So I guess what I am wondering, is what is the right mix, 
in your view, of bottom up and top down, and is there a 
potential for either stalemate or stagnation?
    Ms. Goldman. I believe that the pressures that we had put 
on China in what is now the defunct UN Commission on Human 
Rights did have an impact, at least, in making China conform in 
words, if not in deeds, to the human rights covenants. I was a 
member of the U.S. delegation to the Commission during the 
Clinton Administration, and saw the tremendous amount of energy 
and money that the People's Republic put into ensuring that 
they would not be denounced in the Commission.
    Months before the meetings, Chinese officials spread out to 
the non-Western countries with all kinds of gifts and largess 
to ensure that those countries did not vote for resolutions of 
the United States and few Western countries denouncing China's 
human rights abuses. The idea of shaming another country 
bothers me. But it was a factor in China's willingness 
ultimately in signing the two UN covenants. China attempted to 
play off the European countries against the United States, but 
when the European Union was on our side in criticism of China's 
human rights abuses, we had a much greater impact. 
Unfortunately, China has been able to split some European 
countries away from the United States on the human rights 
issue.
    True, one can say that China's signing of the UN covenants 
on human rights was a pro-forma gesture that will not change 
the behavior of its leadership. But China's acceptance of the 
covenants does have an impact on the people who are trying to 
assert their human rights because they can refer to the fact 
that the People's Republic has signed onto these covenants as 
the basis for their actions.
    My experience as a member of the Carter Center group 
monitoring China's grassroots elections provides an example of 
how even village elections in model villages, visited by 
foreign observers, cannot be completely controlled by the 
Party. When we arrived at a village in Sichuan in 2001 to 
monitor the village elections, the villagers were sitting in 
the courtyard under a drizzling rain waiting for us to observe 
their election of village head and representative to the 
township people's council. Three people ran for village head, 
the Party secretary, the treasurer, and the builder, an 
entrepreneur. The nominees gave speeches of three minutes; the 
questions and the answers were short; and then they voted. Not 
surprisingly the Party secretary won. But then the villagers 
were to vote for the representative to the township council. 
The two nominees were the Party secretary and the treasurer. 
All of a sudden, the backers of the builder stood up and 
protested the nomination process. They declared that their 
candidates should have been nominated as well. Immediately, our 
official hosts dragged us away from the village, despite our 
protests. The point of this story is to show that even though 
the Party attempts to control the village elections, they 
cannot completely. These elections are bringing unexpected 
results and are energizing the local level. Whether these 
elections will eventually lead to changes in the political 
system, I do not know. But a process of political consciousness 
and change is underway in China. Though it is difficult to know 
where it will lead, as one can see in this example, democratic 
procedures and political consciousness are taking hold even in 
the Chinese countryside, which the Party cannot control.
    Mr. Foarde. Thank you. Really useful.
    A question for Professor Fewsmith. You were talking about 
the chambers of commerce in Wenzhou city, which I thought was 
fascinating. Do you know how they are organized legally, and do 
they have to register with either the provincial government or 
central government, and in what ways, as trade associations or 
for-profit businesses? How do they do that?
    Mr. Fewsmith. Well, there are nonprofit organizations. They 
are NGOs. One of the things that distinguishes the chambers of 
commerce in Wenzhou is that, to the best of my knowledge, all 
of them raise their own funds. In other parts of China, 
business associations are funded by the government, along with 
the control that that implies. In Wenzhou, they are not. At 
least some of them have very competitive elections for their 
own chairmanship, and they do not even have government 
officials on their board or their advisory board, although they 
do have to have good personal relationships. They have to have 
what is called a ``guakao danwei'' a supervisory organ that 
they are attached to.
    In the case of Wenzhou, that is either the Association for 
Industry and Commerce or the Trade and Economics Commission, or 
several other government bodies. Once, of course, that group 
says, ``Yes, we will sponsor you,'' then they have to register 
with the Civil Affairs Department.
    One of the things which I think is really interesting is 
that there has been this ``one industry, one association'' 
rule, which is a corporatist model. But it does not work very 
well, for lots of reasons. Commerce changes all the time. New 
lines are built up. Does this line of leisure clothing fit in 
the association whose members make men's suits or not? What 
about the association that is in the next town that is doing 
something else?
    There have been some informal associations that are not 
strictly legal, but they have set up meetings, things of that 
nature. As I understand it, some cities in China now are 
beginning to have an experiment with not registering 
associations. We will see if that happens, if that is 
successful, and if it spreads.
    Mr. Foarde. Thank you. Very useful.
    Thank you, Dave.
    Mr. Dorman. I would like to introduce the Commission's 
General Counsel, William Farris.
    William.
    Mr. Farris. Thank you.
    One of the areas I handle for the Commission is freedom of 
expression. I would direct this at all of you. I am wondering, 
how much freedom do intellectuals and citizens have to call for 
political reform in China, and what channels are particularly 
effective, what channels are particularly closed, and how do 
you feel that this space to discuss political reform has either 
gotten broader or narrower in the last year or so? Thank you.
    Ms. Goldman. There is no question that China's political 
system has moved from being totalitarian to what Minxin Pei 
calls a system of ``soft authoritarianism.'' Consequently, 
there is more freedom in people's personal lives and 
professional lives and in business. In my personal 
conversations with Chinese colleagues, they freely state their 
views. It is when they express a critical or even alternative 
view to that of the Party leadership in a public forum that the 
Party cracks down. This present leadership of the fourth 
generation of Party leaders, under Hu Jintao, is more 
repressive and allows less space for public political discourse 
than during the later years of Jiang Zemin.
    This is not just my belief; it's the view of people I 
interviewed when I was in China this past summer. The say that 
they can talk relatively freely among trusted friends and 
colleagues, but that in public they are much more guarded than 
they were in the late 1990s, when they assert there was more 
public space for open debate and expression of political views 
than they have now.
    Also in the late 1990s there was more ideological pluralism 
than now. Publicly stated views then ranged from neo-Maoism and 
neo-Confucianism to liberalism to the new left, and so forth. 
However, even then, any effort to organize political groups 
around these ideological views was repressed by detaining the 
organizers, especially those who attempted to organize 
unsanctioned political groups on the Internet. A group of 
college students that attempted to do that on the Internet was 
harshly repressed and its organizers given prison terms. There 
is no question that there is a bubbling up of uncensored 
political discourse from below, but the Party, through its 
censors, filters, and Internet police is determined to stamp it 
out. Whether or not they will succeed is a question.
    An example of a political debate that the authorities had 
trouble censoring occurred in a dispute over a newspaper weekly 
supplement, Freezing Point, which is attached to the China 
Youth Daily. When Freezing Point published an article that did 
not fit the Party's political view of history, it was closed 
down and its editors were purged. Unlike the silence that would 
have followed such an action in the past, 13 high-level 
establishment intellectuals and retired officials wrote a 
public statement criticizing that closure.
    Such a high-level public protest had not happened before in 
the People's Republic. The intellectuals and ex-officials might 
have protested privately and as single individuals, but not as 
an organized group in a public statement. That, I think, is a 
sign of the changes underway politically in China today. 
Because the signers of the statement were important ex-
officials, the Party did not crack down on them. Though the 
supplement was later reopened, its editors of the time of the 
controversial article were ``retired.''
    Mr. Fewsmith. I would like to add a few comments to that. I 
think that we would all agree that personal expression that 
takes place in a restaurant or at an academic conference has 
dramatically improved over the last 10, 15, 20 years. That sort 
of expression really, I think, is quite open. By the way, it is 
also refreshing that I can go and talk to Chinese colleagues 
about such sensitive issues as North Korea, Taiwan, U.S. 
foreign policy, and have a real exchange of views. It is not 
simply, ``I am going to read you what the government thinks 
today,'' but rather a real give and take. That is something 
that has developed quite a bit over the last few years.
    I would agree with Professor Goldman that the last couple 
of years we have seen a number of trends that are troubling, 
the criticism of public intellectuals, for instance, that we 
saw carried out.
    There is a sense that the range of expression--and here I 
mean public newspaper expression--has narrowed. It is not only 
Freezing Point that was closed, but many other journals that 
have been reorganized and/or closed. I am not quite ready to 
say that the government under Hu Jintao is more repressive, or 
whether this is just one of those periodic oscillations that we 
have seen in the past. I am of the belief that the political 
leadership situation is still fairly unsettled, and that you 
will probably see another iteration, another turn of the wheel, 
after the 17th Party Congress. Which way that will go, we will 
just have to wait and see. Between Party Congresses is when 
political tensions tend to be the highest. So in a couple of 
years, maybe we will be able to say something more definitive 
about which way things are going.
    At the same time that there has been a squeezing of the 
public expression in newspapers, there has been an expansion of 
expression on the Internet--which has not gone unchallenged by 
the government--and in blogs. It is fascinating that you can 
get on the Internet and read all sorts of people's blogs and 
get all sorts of expression, some of which are very much ``in-
your-face,'' if you will.
    In any case, at the same time, what we have seen over the 
last couple of years has been one of the more far-reaching 
discussions on what direction the country should go on that we 
have seen in the last 25 years. It has been compared to the 
discussion that accompanied the early Dengist period on praxis 
as the sole criterion of truth. There was obviously a vigorous 
discussion right after Tiananmen about where the country should 
go, and now there is another one.
    The defenders of what might be broadly called neo-liberal 
economic policy, and a lot that goes with that, versus those 
who would take a much more populist tack and emphasize 
redistribution of wealth and a greater involvement of 
government entities at various levels, these are discussions 
about fundamental government policies and what type of polity, 
in the broad sense, they are going to develop.
    These are not discussions about whether or not China should 
have a democratic system or a socialist system, or those sorts 
of discussions. But yet, the policy discussions are really very 
critical, and they are central to the politics of China.
    This has been carried out very publicly in newspapers and 
on the Internet, in all sorts of discussions for the last two 
years, so you can debate an awful lot of things. And, by the 
way, I think one of the reasons you can have that, and are 
having that, is that there is an opening at the top, that the 
political leadership itself has not really decided where it 
wants to go on these issues. When you have that sort of mix at 
the top--maybe in Washington you should use the expression 
``divided government''--the range of expression tends to be a 
bit greater.
    Mr. Dorman. Good. Thank you.
    I would like to pass the questioning now to Carl Minzner, 
who is a Senior Counsel on the Commission. Also, Carl, as all 
of our panelists know, went to great efforts to set up this 
roundtable and did all the hard work necessary for pulling it 
together. So, thanks, Carl, for that.
    Mr. Minzner. Thank you.
    And thanks to everyone for coming. Thanks, particularly to 
our panelists, for enlightening us here this morning on the 
important issues before us.
    I have a question that I will direct to Professor Fewsmith 
and Mr. Xie, which is that Chinese local governments, 
particularly in rural China, are frequently characterized by a 
monopoly of power in the hands of the local Party secretary. He 
may control the government, the courts, and the entire local 
Party organization. This unchecked power gives rise to a range 
of abuses and corruption.
    How can partial reform efforts that are supposed to take 
place under his supervision successfully address these 
problems? At some point, even if you are just interested in 
improving governance, don't you have to start addressing issues 
of external constraints and popular constraints on the power of 
the local Party secretary?
    Mr. Fewsmith. That is a good question, and a difficult one 
to address, certainly; in the breadth and depth of China there 
are many different things happening.
    I think that the problem that you point to is a very real 
one. It is a very widespread one, and it is one of the things 
that, as I said in my opening statement, is motivating the 
sorts of changes that I have been looking at.
    Recently I have been reading about something known as the 
``yizhi sanhua''--one mechanism-three transformation--system 
that has been implemented in parts of Hebei province. It came 
very specifically out of the village elections for village 
chief in the early part of this century, in the 2002-2003 
period, where the village chief claimed legitimacy on the basis 
of the elections and basically said, ``I represent the village. 
Who do you--the Party secretary--represent? '' There were these 
sorts of conflicts. This is a fairly poor area, and there were 
a lot of these sorts of conflicts.
    The bottom line is that the way that this was ultimately 
addressed is, first of all, the Party came down and said, 
``Well, the Party secretary really is the boss.'' On the other 
hand, no decisions can be made without a joint meeting of the 
Party committee and the village committee, and you will jointly 
decide these things, like putting everybody in the room 
together and saying, ``Do not come out until you have an 
agreement.''
    At the same time, they also removed a lot of the financial 
flexibility from the village government, so the township has a 
special account for the village and monies are paid to the 
township. This raises some questions about township governance, 
but at least it removes it immediately from the village.
    How widespread are these sorts of mechanisms? More 
widespread than they used to be. This is one of the sorts of 
quiet things that are beginning to happen. I do not want to say 
how widespread these sorts of things are. But this is what I 
mean by sort of an alliance of higher Party people and the 
local populace, which both of them have an interest in 
constraining the abuse of power at the local level.
    Mr. Xie. In terms of the township Party secretary, at the 
current time I think it is quite difficult to monitor. Because, 
for example, in one program we did earlier in which we wanted 
to assess the performance of the township government employees, 
the Party secretary of the township was supportive on the 
condition that he was not assessed. I mean, he was supportive 
of the program, so any government employee could be assessed, 
except him.
    In other words, because the whole Chinese structure makes 
the officials only responsible to their superiors rather than 
to the local people. I mean, that is the general problem, 
because they were appointed by the Party branch committee and 
they were elected by the Party members. That is why we hope 
that our programs could find some solutions that could mobilize 
the farmers to protect their rights and supervise the 
government. If that is successful--it may take a long time--it 
may help in some ways to provide some support.
    Ms. Goldman. What impressed me when I was an observer of 
the village elections was that despite the fact that the Party 
still controlled the election procedures, the elections were 
inculcating democratic values. For example, when I asked people 
what they thought of the process of village elections, one old 
farmer, pointing his finger, said, ``You see that guy? I just 
elected him. But if he does not do what I want, I can elect 
somebody else in three years.'' So, despite the fact that the 
Party still controls the village election process, I think 
village elections are engendering a sense of accountability at 
the very bottom of society.
    Mr. Dorman. Good. Thank you.
    I would like to pass the questioning now to Commission 
Senior Counsel, Pamela Phan.
    Pam.
    Ms. Phan. Thank you, Dave. I would like to also echo the 
Commission's thanks to everyone, and particularly the 
panelists, for coming out today.
    One issue of concern to the Commission has been the Chinese 
Government's respect for private citizens' property rights, 
especially since the 2004 amendments to the Constitution. We 
have seen quite a bit of reporting over the past year about 
villagers who are angry over issues of corruption and over 
government takings of their farmland. These issues have existed 
for a while, and we have had conversations with various Chinese 
experts about the mechanisms that are available to citizens for 
enforcement of property rights.
    I am curious about what your thoughts are on the 
effectiveness of more traditional mechanisms such as xinfang--
petitioning--or administrative litigation, or recall campaigns, 
and also what you think about the effectiveness of potential 
new mechanisms, such as the deliberative democracy efforts that 
people have been talking about, or homeowners' associations?
    Ms. Goldman. We have thought that there was going to be an 
introduction of some kind of stipulation on property rights at 
the National People's Congress meeting in March 2006, but that 
stipulation was apparently blocked by the opposition of a 
leftist economist, among others.
    A post-doctoral fellow at the Fairbank Center at Harvard 
this year, Chen Xi, has written a book about the practice of 
petitioning. He believes that petitioning is important because 
it draws the Party's attention to problems. However, as another 
Chinese academic has pointed out, less than 3 percent of the 
people who petition the government get any kind of redress. 
Petitioning is a form of protest that has produced few results.
    Furthermore, Hu Jintao has ordered local level governments 
to deal with petitions so that petitioners will not go to 
Beijing and cause disruption. Usually petitioners who go to 
Beijing are handled very roughly and sent back to their local 
areas. Petitioning is the traditional way of protest and 
expressing discontent, but it has not proved very effective.
    With respect to the Administration Litigation Law, I 
believe that a few years ago we estimated that about one-third 
of the people who use the law get some kind of redress in 
bringing suit against what they consider to be corrupt local 
government officials. But they cannot bring suit against high-
level Party officials. So there are really limits on what this 
law can do.
    If it were possible to get a stipulation in the Party 
constitution recognizing private property rights, then at least 
there would be a law that people can point to as the basis for 
demanding their property rights.
    The Xi'an peasants whom I described were really furious 
because their land had been taken away for little compensation, 
but they had no recourse other than holding up posters to 
protest their treatment. This method is still the traditional 
way of seeking redress. There are still no institutionalized 
channels through which one can express one's discontent and 
demand recompense.
    One change, however, that I talked about earlier in a 
different context, is the willingness of intellectuals, such as 
lawyers, to help farmers find legal means to demand some kind 
of redress. That new phenomenon is similar to the actions of 
intellectuals joining with other classes--workers, small 
entrepreneurs, and farmers--in political actions. Another new 
phenomenon that appeared in the late 1990s is the emergence of 
defense lawyers, who have been very brave in defending people 
charged with political crimes. So this is another grassroots 
change that is occurring in the People's Republic in the early 
years of the 21st century.
    Mr. Fewsmith. Of course, the whole issue of property 
rights, as you know, was before the National People's Congress 
this last March, and they delayed the vote on that. That debate 
was absolutely central to the debate that I was talking about 
before about ``Where are you going? '' Of course, the proposed 
law protected private property and it was attacked for 
undermining socialism. So, that debate is going to be an 
ongoing one, and we will have to see where they balance those 
different concerns.
    It is a very sensitive issue. The government, at all 
levels, is worried about this because the struggle over 
property rights is, indeed, one of the major causes for social 
disruption at the local level. All too frequently, a local 
government will be collusive with a property developer, and all 
of a sudden the peasants' land is gone. The peasants get 
compensation, but they often regard it as inadequate.
    This, of course, raises a question of, what is adequate 
compensation? Without a well-developed land market, how do you 
know what the land is really worth? Then, of course, the 
peasant is looking and saying, ``But I do not have a job. These 
are tight times. I cannot go back and farm.'' You do not make 
money as a farmer, but you can at least survive.
    There was, of course, the very interesting case up in 
Dingzhou in Hebei, where I am sure you saw the film of that, a 
really atrocious example of thugs coming in with vicious 
weapons. The thugs did, in fact, kill some people and maim 
others. But somebody caught it on a home camcorder. You will 
recall, I think it was Zhongguo Jingji Shibao--China Economic 
Times--ran a very long investigative report on that incident, 
and at least in that instance, some justice was done, in that 
the local Party secretary was sentenced to life in jail.
    So you can kind of see the government struggling to find a 
balance point. In the Dingzhou case, they clearly took action 
to redress the injustice. In the Taishi case in Guangdong 
Province, they have not. So governments are wrestling with this 
issue, and it is going to be one of the most contentious and 
important debates over the next several years, I think.
    Mr. Xie. Just one more comment. I think, at least in terms 
of private properties, it should be the farmers themselves who 
protect themselves. Whoever else, the government officials, the 
lawyers, the educated elite, may not provide enough protection. 
Eventually, fundamentally, farmers themselves have to find ways 
to collectively protect their own property rights.
    Petitions or claims assistance will not help much. If 
something can help, that is the future when our judicial system 
is further reformed, and this may help in some way. But the 
farmers themselves have to take the initiative.
    Mr. Dorman. Good. Thank you.
    Next, I would like to recognize Commission Counsel Kara 
Abramson.
    Kara.
    Ms. Abramson. Yes. I have a question for Professor Goldman. 
I was wondering if the changes that you have described are more 
prevalent in some parts of China than in others. How do places 
like Xinjiang and Tibet, or Guangxi and Yunnan, fit into this 
picture?
    Ms. Goldman. The China Democracy Party, as I said, started 
in Hangzhou, then spread to Wuhan and the coastal areas and 
then inland. It did not spread to the minority areas of 
Xinjiang and Tibet. The Party's unwillingness to negotiate on 
ethnic and religious issues in those areas is more intractable 
than its handling of the bubbling up of some kind of democracy 
elsewhere in China.
    I was in Xinjiang this past summer; I had never been there 
before. I first went to Urumqi, which has now become a Han 
city. A similar kind of migration of Han into Tibet is 
underway. I suspect that the Han migration will in time make 
the Han the dominant ethnic group in both Xinjiang and Tibet. 
However, when we left Urumqi and went, for example, to Kashgar, 
one knew immediately it was a Uighur city; women were wearing 
veils. I was told that a few years ago they were not wearing 
veils in Kashgar.
    This is just an observation; I have not studied this issue 
in any depth. But it appeared that the situation in Xinjiang 
was becoming more polarized than it had been before. At least, 
that was the way it was described to me. But the problem in 
Xinjiang and Tibet is more of an ethnic conflict than a 
political conflict.
    Mr. Dorman. Good. Thank you.
    I would like to ask all of you to help the Commission 
identify trends in China, never an easy task.
    Professor Goldman, you mentioned that under the current 
government, the room for certain rights had narrowed, 
specifically public expression on sensitive topics. You also 
described a bubbling rights consciousness among merchants, and 
disenfranchised intellectuals speaking out.
    To what extent are these two trends reactions to each 
other? Is the government reacting to the new rights 
consciousness? Are these individuals speaking out against the 
narrowing of freedoms? How has this evolved in the last couple 
of years?
    Ms. Goldman. Despite constriction of public space for 
political discourse under Hu Jintao, there is a broadening of 
political discourse beyond intellectuals to other classes, as I 
mentioned earlier. There is also more openness to the outside 
world.
    That is why I believe that something is happening in the 
People's Republic that is unprecedented. As I said earlier, 
contact between intellectuals and other classes may have 
something to do with the experience of the Cultural Revolution, 
when students were sent to the countryside, prison, and labor 
reform. Those experiences put them in contact with other 
classes of people that they did not have before. Thus, there 
has been a qualitative change. These multi-class political 
actions may prove more effective than the efforts of 
intellectuals to bring about political change on their own.
    Frankly, a market economy provides many more opportunities 
for political actions than a planned economy. Under Mao, if one 
were purged or released from prison, there was no way one could 
make a living. Today, there is life after being purged or 
imprisoned for political reasons. Many of the people in the 
China Democracy Party, who had been imprisoned for their 
participation in the 1989 Tiananmen demonstrations, once 
released, were able to open up their own small software stores. 
They were not making much money, but they were able to support 
themselves and establish 
contact with the outside world and with their former fellow 
demonstrators. They continued their interest in participating 
in politics. Similarly, students who go abroad to study often 
continue their interests in politics. I recently received an e-
mail from one of my former students who talked about democracy 
and political rights, despite the censorship and filtering of 
China's Internet.
    Mr. Fewsmith. I certainly concur with Professor Goldman 
that the dynamic has changed dramatically over the last 10 or 
15 years. But whether cautiously optimistic or cautiously 
pessimistic, I am always within a fairly narrow range.
    In any case, the scope of discussion of a variety of sorts 
is just much larger than it used to be. As Professor Goldman 
said, in the 1980s it was confined to a fairly small, 
intellectual elite. That dynamic has changed fundamentally. Now 
you are talking about citizen involvement.
    As I say, you are talking about the Party itself asking, 
``So how do we reform? How do we do things? '' They are not 
interested, of course, in introducing Western-style democracy. 
They want to reform in ways that will keep the Chinese 
Communist Party in power. But if they are successful in doing 
that, it will not be your father's Communist Party, it will be 
something that is new and at least provides, I would like to 
think, some better governance.
    One of the reasons I am interested in what I have been 
doing the last couple of years is that I am trying to look at 
the creation of institutions at the local level, because no 
matter which way the Chinese Communist Party goes, if you do 
not create those institutions, you do not get better 
governance.
    If the Party were to collapse, the social upheaval would 
likely be tremendous. This is the downside risk; it would not 
be very pretty. If you can build some of these institutions, 
then you can get much more societal consensus about how 
politics should work, be organized, and so forth.
    That, I think, is the thing that might eventually bubble up 
from the bottom. And it does have to go from the bottom to the 
top. The top has to say, ``All right, guys, you can try this'' 
and then they can monitor this sort of thing, but the impetus 
for change I think really has to come from the bottom up.
    I will make two additional points. One, I cannot hazard 
statistics on how many different experiments there are now as 
compared to 10 years ago, but I guarantee you that it is 
exponentially greater. They still may not be on the scale or 
the depth that I think we would all like to see, but if you go 
back to, say, 1995, and compare, then it is apparent that we 
are in a different ballpark now. This is going to continue.
    My guess, as I said before, is that after the 17th Party 
Congress, after that arena is settled, that you are probably 
going to see firmer direction and, I hope, some more rapid 
progress, supporting at least some sorts of reform at the local 
level in that period.
    Mr. Dorman. Mr. Xie, did you want to respond?
    Mr. Xie. Yes. From my experience, I would like to make 
three points. One, is that in our programs we do not just 
simply do surveys, we want action. We want to do reforms. We 
want our grantees to use our experiments to generate policy 
suggestions. In that case, you need to have support from the 
local officials. You have to be careful where you go for those 
programs, but we do find them supportive when we do programs. 
So, I think it really depends on where you go and what you do 
when you talk about political 
reform.
    The second point is that I think years ago the Chinese 
scholars, or maybe the officials, were not quite sure what they 
should do. In that sense, there was more room for discussion 
where you could be discussing things that are entirely 
different from the government ideas. Now I think the ideas are 
pretty much set. The government would have its own idea of what 
it should do, what kind of reform it should expect. Once you 
talk about things that are different from the government ideas, 
they tend to be probably repressive. But once you are talking 
about one that is not so radical, maybe you can talk about it.
    I probably should discuss the third point at a different 
roundtable.
    Mr. Dorman. Good. Thank you very much.
    Unfortunately, we are two minutes over. Could I ask each of 
you to stay just for two more minutes for one more question? We 
generally try not to keep our panelists or witnesses any longer 
than 90 minutes.
    Mr. Minzner. It is a good question.
    Mr. Dorman. All of Carl's questions are good. He will only 
ask 1 of the 31 questions I see he has written down, though.
    Mr. Minzner. I will just pick one. I will pick a broad 
question to end on. I want to pick up on something Merle had 
mentioned, and particularly make sure that I get Professor 
Fewsmith's input as well.
    Taiwan and South Korea successfully transitioned from 
authoritarianism to democracy during the 1970s and 1980s. How 
do the current efforts by the Chinese political leaders that 
you have been discussing with regard to political change, and 
that Professor Goldman has been talking about with regard to 
popular political participation, compare to similar periods 
early on in the South Korean or Taiwan political transition 
period, say in the late 1970s, early 1980s?
    Mr. Dorman. My apologies.
    Ms. Goldman. The post-Confucian countries of South Korea 
and Japan were among the first non-Western countries to become 
democratic. This also happened in Taiwan. I believe that part 
of the reason for this interest in democracy has to do with 
Confucianism. I cannot say Confucianism necessarily lends 
itself to democracy, but it certainly does not hinder it. 
Again, referring to one of my students, he described having 
dinner in his family. He said there were four grandparents, two 
parents, and himself. He said ``What do they talk about? My 
education, education, education, and hard work.'' He said 
``They are so Confucian.'' But this emphasis on education has 
made for social mobility in Chinese society.
    Also, there is the concept in Confucianism of the 
responsibility to speak out against an abusive leader or 
official and protest against unfair treatment. I know these are 
the ideals, but they still exist in China today.
    Japan, South Korea, and Taiwan, however, made their 
transition under a certain degree of American tutelage, so I am 
not sure their transformation is replicable in China. Despite 
Mao's efforts to root out Confucianism, the Confucian value 
system still exists in China today. Nevertheless, it will take 
much longer in China than in the post-Confucian Asian 
countries, or than in Taiwan, to move in a democratic 
direction. As I said in my recent book, the elements for 
political reform are there and bubbling up from below.
    Mr. Fewsmith. You did want the two-hour response, did you 
not? [Laughter.] It is obviously a complicated question. I went 
to Taiwan as a student in 1974. One of the things that is 
really gratifying about Taiwan is the extent of change. When I 
was there as a student way back when, there was a military 
police officer on every corner in a nice, shiny helmet. The 
military presence was stronger there than you see in Beijing or 
other Chinese cities today. Yet, it transformed itself, and it 
is quite gratifying to see that.
    But, of course, you had a very special situation in Taiwan, 
where you had political power being held by a sub-ethnic 
minority of about 10 percent or so of the population, and the 
rest of the population feeling oppressed by that. That ethnic 
tension, of which we see more than a few shades to this day, 
was something that, in fact, benefited this transition. There 
was no way that the government was going to be able to maintain 
that political monopoly 
unless they became extraordinarily repressive. Fortunately, 
that government was not willing to do that. Perhaps the open 
economy, the relationship with the United States--they probably 
had more Ph.Ds in their government than we have in our 
government. The Kuomintang, for all its authoritarianism and 
its Leninist form, really was not a Leninist party. It gave up 
its Leninism about 1930. That is my first point.
    In any case, the Korean situation is much more of a story 
of a burgeoning middle class, and there are also some regional 
tensions, as we all know, from the Kuangju uprising and so 
forth.
    One of the things that Mao really did was to carry out a 
sort of clear-cutting of Chinese culture. It was a cultural 
cataclysm. Confucianism was destroyed, at least for a period of 
time. Social structures were destroyed. As China emerged from 
that nightmare, there was no consensus on what cultures should 
be, what the values of society are, what sorts of people should 
be promoted to what sorts of positions, how they should be 
promoted, all these sorts of fundamental human questions. I 
think China has now spent 25 years slowly reconstructing itself 
as a society, and it is going to take China another 25 years to 
get, I think, to a certain sort of basic societal consensus and 
overcome that really devastating cultural and societal impact 
of the Maoist experiment.
    Ms. Goldman. I am going to counter Joe on one point. My 
first trip to China was in 1974. I was the China expert who 
accompanied the delegation of American university presidents. 
What really impressed me on this first trip was that, despite 
the Cultural Revolution still underway, was how much of the 
Confucian value system still remained. No matter how hard Mao 
tried to destroy it, he could not get rid of the Confucian 
respect for the elders and for education. So I would like to 
conclude that the Confucian values are still important in China 
and, in time, will help China move in the democratic direction 
of its post-Confucian neighbors.
    Mr. Fewsmith. By way of clarification, I do not think that 
I said that they are not there or important. There is not a 
consensus on their role in society, as opposed to a personality 
type, certainly the value of education. They are good on that. 
That is something that we should study from China.
    Mr. Dorman. Good. Thank you very much.
    Unfortunately, I feel like our conversation has just begun. 
Mr. Xie, would you like to add a final point?
    Mr. Xie. No.
    Mr. Dorman. We are 10 minutes over our time limit, and I 
apologize to our panelists and our audience.
    Professor Merle Goldman, Professor Joseph Fewsmith, Mr. Xie 
Gang, thank you, on behalf of our Chairman, Co-Chairman, and 
Commissioners, for sharing your expertise, your knowledge, your 
wisdom on these extraordinarily complex and important issues. 
So, thank you again.
    With that, I will call the roundtable to a close. Thank 
you.
    [Whereupon, at 11:40 a.m. the roundtable was concluded.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                  Prepared Statement of Merle Goldman

                              may 15, 2006

                      Grassroots Political Changes

    The conventional view of post-Mao Zedong China is that it has had 
extraordinary economic changes, but few political changes. The World 
Bank has called China's rate of economic growth of 9-10 percent a year 
for the last 20 years not only the fastest in the world today, but in 
world history. Yet, while China has moved to a market economy, it 
continues to be ruled by an authoritarian Leninist party-state.
    Nevertheless, China's political system has also experienced some 
changes, though not on the scale of what is happening in the Chinese 
economy. In the late 1980s, villagers began holding multi-candidate 
elections for village heads and village councils that during the early 
years of the 21st century spread to 90 percent of China's villages. 
Multi-candidate elections are also held for local people's councils and 

neighborhood committees in the cities. A few townships have 
experimented with multi-candidate elections for township heads. In 
addition, thousands of NGOs were established, but had to be registered 
under the auspices of a government organization and registered with the 
Ministry of Civil Affairs. Moreover, complying with Deng Xiaoping's 
dictum that the head of the Party cannot serve more than two five-year 
terms, China introduced term limits for the leadership of the Chinese 
Communist Party. Thus, the transition from the party leadership of 
Jiang Zemin to Hu Jintao in 2002-2003 was the smoothest transition in 
Chinese Communist history. All of these political reforms, however, 
were sanctioned by the Chinese Communist Party in order to maintain 
stability and to regain the party's legitimacy after the chaos of Mao's 
Cultural Revolution (1966-76).
    Other political changes have occurred in the post-Mao era without 
the consent of the party. My new book ``From Comrade to Citizen: The 
Struggle for Political Rights in China'' focuses on the emergence of 
various individuals and groups who have sought to assert their 
political rights in the post-Mao era without party sanction. A 
``comrade'' during the Mao era was one who did whatever the party 
ordered him to do. Therefore, when intellectuals and others criticized 
the party during the Hundred Flowers period in 1956 and the first half 
of 1957, they did so because Mao had ordered them to rid the party of 
its bureaucratic ways. Similarly, in the Cultural Revolution Mao 
ordered China's youth to attack the party's leaders whom Mao believed 
were plotting against him. They were acting as ``comrades'' in carrying 
out the orders of the party leader.
           assertion of political rights in the post-mao era
    When individuals and groups began to criticize the party's policies 
and called for political reforms soon after Mao's death in 1976, they 
were acting as citizens because unlike in the Mao era, they were doing 
so of their own volition and were attempting to assert their right to 
participate in politics.
    With China's move to the market and opening up to the outside world 
in the 1980s and 1990s, the post-Mao leadership relaxed the party's 
controls over everyday life. This loosening-up led not only to a 
dynamic economy and the emergence of ideological diversity--neo-
Maoists, neo-Confucians, liberals, conservatives and the new left--it 
also led to a growing sense of rights consciousness, particularly of 
political rights, as various individuals and groups attempted to assert 
their right to speak out and organize on a variety of issues without 
the party's permission. Some of those asserting their political rights 
were influenced by East European and Soviet dissidents in the late 
1970s and 1980s who attributed their actions to their own 
constitutions. Similarly, the Chinese individuals and groups called for 
political rights based on the stipulation of freedom of speech and 
association in Article 35 in China's Constitution.
    The demands for political reforms were initially articulated and 
acted upon by two groups of intellectuals. One group was the 
``establishment intellectuals'' who 
returned from exile in the countryside or prison after Mao's death and 
staffed the party's research institutes, national media, official 
commissions and professional organizations. They became members of the 
intellectual networks of Hu Yaobang and Zhao Ziyang, the party leaders 
in the 1980s. When their political patrons--Hu in 1986 and Zhao in the 
aftermath of the military crackdown on the Tiananmen demonstrators on 
the June 4, 1989--were purged so were these establishment intellectuals 
for calling for political reforms. I describe these establishment 
intellectuals in my previous book ``Sowing the Seeds of Democracy in 
China.''
    ``From Comrade to Citizen'' focuses on the ``disestablished 
intellectuals.'' These were people who would have been in the 
establishment but for the fact that their activities as Red Guards in 
the Cultural Revolution and as leaders of the 1989 student 
demonstrations led to their removal from the establishment. When in the 
Cultural Revolution, Mao mobilized college students, called Red Guards, 
to rebel against the party, their teachers and families, they caused 
chaos. Mao then ordered them to go to the countryside to learn from the 
peasants. There, far away from family, school and authority, they began 
to think on their own, question the party and form their own discussion 
groups. The impact of Mao's policies on the Cultural Revolution 
generation was contradictory. On the one hand, they were deprived of an 
education; on the other, they were taught to question authority.
    Thus, soon after they returned to the cities after Mao's death in 
1976, they launched the Democracy Wall movement of late 1978-79 in 
which they not only challenged party policies, they even called for 
political reforms in order to prevent the excesses of the Cultural 
Revolution. They used the methods they had learned in the Cultural 
Revolution--forming groups, putting up wall posters, publishing 
pamphlets and engaging in public debates. Initially Deng allowed them 
to continue their movement because it helped remove Maoists from power, 
but once that was done, Deng then repressed the movement and imprisoned 
their leaders in 1980.
    The other group to assert their rights in the post-Mao era was the 
leaders of the 1989 demonstrations, who among other demands, also 
called for political reforms. Though they too were imprisoned after the 
June 4 crackdown, they as well as the leaders of Democracy Wall 
movement were released from prison in the mid 1990s in order for China 
to get the Olympics in the year 2008. Their release reveals that 
Western pressure on human rights issues can have an impact on political 
events in China. Whereas Mao did not care what the outside world 
thought of him or China, the post-Mao leadership responds to outside 
pressure because they want to be recognized and accepted by the outside 
world and to be seen as playing by the rules of the international 
community.
    Unlike in the Mao era, China's move to the market made it possible 
for these disestablished intellectuals and released political prisoners 
to support themselves as small business people or workers. They also 
led demonstrations, organized petitions, and formed political groups 
during the 1990s. Also with the privatization of publishing in the 
post-Mao era, they were able to present views that diverged from the 
party's by publishing books and articles outside party auspices and 
having their books distributed by private booksellers.
    Equally important, in the post-Mao era, intellectuals, particularly 
the disestablished intellectuals, for the first time were willing to 
join with ordinary workers in political actions. Although during the 
1989 Tiananmen demonstrations, the students isolated the workers who 
wished to participate in the demonstrations because they knew of the 
party's fear of a Chinese Solidarity movement, afterwards when they 
were thrown out of the establishment, they were willing to join with 
workers, farmers and ordinary citizens in political actions. An example 
of this alliance can be seen in the attempt in 1998 to establish the 
China Democracy Party, CDP, the first effort in the People's Republic 
to form an opposition party. The leaders of the CDP came from Cultural 
Revolution and 1989 generations and were joined by a small number of 
small entrepreneurs, workers, and farmers.
    Their strategy was to establish the CDP as local NGOs by 
registering with the local offices of the Ministry of Civil Affairs, 
which was the ministry in charge of NGOs. This effort began in 
Hangzhou, led by veterans of the 1989 Tiananmen demonstrations. It 
spread to the east coast and then inland to Hunan and Sichuan. A 
regional CDP was established in China's Northeast by veterans of the 
Cultural Revolution. Their movement was coordinated and assisted by the 
new communications technologies--the Internet and cell phones--
introduced into China in the mid 1990s. Despite the censorship and 
filters, these technologies made it possible to organize on a regional 
and national scale before the party crackdown. In addition, in another 
indication of the impact of outside influence on events in China, the 
founders of the CDP timed their efforts to a series of visits of 
important foreign leaders to China in the second half of 1998, 
beginning with President Clinton in June 1998, followed by British 
Prime Minister, the UN Commissioner on Human Rights and the French 
president. At the end of these visits in late 1998 and early 1999, the 
party arrested the leaders of the CDP.
    Despite the repeated suppression of the grassroots efforts of the 
disestablished intellectuals to assert their political rights, by the 
beginning of the 21st century, increasing consciousness and 
articulation of political rights as well as of economic rights was 
spreading to the population in general--workers, peasants, a growing 
middle class, and religious believers. Peasants, thrown off their land 
to make way for factories and infrastructure projects, demanded more 
compensation; ordinary citizens called for the right to clean water and 
clean air; and workers who lost their jobs in state industries demanded 
health care and pensions. Kevin O'Brien, political scientist at 
Berkeley, has pointed out that peasants exert their rights by their 
actions. But, by the early 21st century they are asserting their rights 
with words as well. I myself witnessed a protest of farmers in 2003 on 
the outskirts of Xi'an at the entrance of the Big Goose Pagoda, where 
peasants held up posters demanding their right to more compensation for 
the land that had been taken away from them for modernization projects.
    The perennial distinction in Chinese history between the 
intellectuals and the rest of the population has become blurred since 
the mid-1990s as intellectuals joined with other classes to bring about 
political change and as other groups in the population demand political 
rights. Unlike the Western bourgeoisie, China's rising middle class is 
not independent of the political leadership. China's most successful 
business people are being inducting into the party. In fact, their 
ability to be successful in business depends on their connections with 
the party. Therefore, the major participants in these efforts for 
political reforms are not the newly rich business people, but other 
members of the rising middle class--the disestablished intellectuals, 
journalists, a number of defense lawyers, and small business people.
    Grassroots assertions of political rights do not necessarily 
guarantee movement toward democracy, but they are prerequisites for the 
establishment of democratic institutions. There can be citizenship 
without democracy, but there cannot be democracy without citizen 
participation. These various and accelerating grassroots efforts of 
various groups and individuals to assert political rights signify the 
beginnings of genuine change in the relationship between China's 
population and Chinese Communist Party at the start of the 21st 
century.
                                 ______
                                 

                 Prepared Statement of Joseph Fewsmith

                              may 15, 2006

       Feedback Without Pushback? Innovations in Local Governance

    Over the last several years, China has begun to introduce a number 
of reforms into local governance in an effort to allay local 
discontent, to respond to growing demands for greater participation in 
politics, and to better monitor local agents of the state. Although 
limited elections have been introduced into the Chinese Communist 
Party, the main thrust of these reforms seems to be gain the sort of 
input that elections normally provide but without introducing electoral 
democracy, or, to use Rick Baum's felicitous phrase, to get ``feedback 
without pushback.'' \1\ The purpose of this short paper is to discuss 
some of the innovations that have been introduced in recent years in 
local governance and give some preliminary evaluation of their 
effectiveness, recognizing both that such reforms are still in their 
early stages and that my own research is on-going.
---------------------------------------------------------------------------
    \1\ Richard Baum used this phrase in making comments at the 
Association for Asian Studies meeting in San Francisco, April 7, 2006. 
I borrow his phrase with permission.
---------------------------------------------------------------------------
    In general terms, the sorts of reforms the CCP has been introducing 
fall into two broad categories, those that adjust the party's relations 
with society and those that introduce limited competition and 
supervision into the party itself. As will be pointed out below, there 
is some overlap between these two categories, but conceptually, and to 
a large extent in practice, they seem to be separate at the moment. 
Both respond to emerging societal pressures, and both aim at such goals 
as better governance and greater supervision. Neither aims to do away 
with the party; rather the intent is to improve party responsiveness 
both to reduce societal discontent (``pushback'') and to preserve the 
party's ruling position.\2\ To the extent that such adjustments are 
effective, both hardline Marxists who resist such innovations and those 
who hope for a rapid transition to democracy are likely to be 
disappointed. It might be added that if such reforms are ineffective, 
the alternatives might be even worse.
---------------------------------------------------------------------------
    \2\ Several parts of this statement draw heavily on my articles 
``Taizhou Area Explores Ways to Improve Local Governance'' and 
``Chambers of Commerce in Wenzhou and the Potential, Limits of `Civil 
Society' in China'' in China Leadership Monitor, issues 15 and 16, 
summer 2005 and fall 2005, respectively, available at 
www.chinaleadershipmonitor.org.
---------------------------------------------------------------------------
        adjusting relations between the party/state and society
    Chinese society has changed dramatically over the past two and a 
half decades; society is far more dynamic, wealthier (though unequally 
so), better educated, more independent of the party/state, and 
pluralistic. Such trends, as many accounts attest, have generated 
demands for public participation in governance. Some of these demands 
are broadly spread across the body politic, while others are limited to 
specific sectors, such as the business community. As is well known, 
much of China's economic development in recent years has depended on 
the growth of a vigorous private economy, and government, especially at 
the local level, has to take the needs of this sector into account when 
thinking about public policy.
    Chambers of Commerce. One way to do so is to allow, or even 
encourage, the development of NGOs. Much attention has been paid of 
late, in both China and elsewhere, to the role of NGOs in the various 
``color'' revolutions that have brought down governments in the 
Ukraine, Georgia, and elsewhere. But while NGOs can bring demands for 
political change, they are also a necessary part of the evolving state-
society relationship in China. From the perspective of the government, 
NGOs can provide essential information that can promote better public 
policy. Also, if part of the objective of government reform is to 
``change the function'' of government departments so that they provide 
more service and less control, then NGOs can pick up some of the slack, 
providing societal networks that can organize and coordinate societal 
activities as the state takes up a narrower range of activities.
    One area in which one can see visible change taking place--at least 
in some places--is in the emergence of chambers of commerce (shanghui) 
and trade associations (hangye xiehui). In much of China, chambers of 
commerce still have a very strong government imprint. After studying 
Yantai, the fourth largest city in Shandong province, Kenneth Foster 
concluded that business associations there are ``highly integrated into 
the bureaucracy, while at the same time being relatively ineffective 
organizations.'' \3\ This statement is probably applicable to much of 
the north China plain. The problem is two-fold. First, in many places, 
as government departments were reorganized into associations overseeing 
privatized industry, the officials running those associations tended to 
be the same officials who had previously overseen the industry. 
Hierarchical patterns of authority have tended to continue. Second, 
many government departments are simply unwilling to turn their 
functions over to business associations for fear of diminishing their 
own importance.
---------------------------------------------------------------------------
    \3\ Kenneth W. Foster, ``Embedded within State Agencies: Business 
Associations in Yantai,'' in The China Journal, no. 47 (January 2002), 
p. 65.
---------------------------------------------------------------------------
    This pattern sometimes leads to strange results. For instance, in 
Tianjin, the northern port city near Beijing, the Tianjin Apparel 
Chamber of Commerce (Tianjin fuzhuang shanghui) was established in 1998 
as a second tier organization (erji zuzhi) under the Tianjin Chamber of 
Commerce (which, as in other places, is the Association of Industry and 
Commerce [gongshanglian], the united front organization initially 
established in 1953 and later revived in the reform era). It has a 
chairman, 12 vice chairmen, and four employees. But it does not have 
independent legal standing. In Tianjin, there are few, if any, state-
owned enterprises (SOEs) left in the apparel industry, so the Apparel 
Chamber of Commerce is really the only association that can represent 
the apparel industry in the city. The problem is that there is a pre-
existing Tianjin Textile and Apparel Association (Tianjin fangzhi 
fuzhuang xiehui) that was set up out of the government bureau that 
originally oversaw the industry. So this association is a semi-official 
organization, much like the business associations in Yantai that 
Kenneth Foster describes. Because it is semi-official and not very 
effective, enterprises tend not to trust it. But under the rule that 
there can be only one association per industry, the more effective 
Apparel Chamber of Commerce cannot be registered. Fundamentally, the 
local Civil Affairs Bureau does not want to offend the Textile and 
Apparel Association, so the more effective, bottom up organization is 
left largely crippled and in legal limbo.\4\
---------------------------------------------------------------------------
    \4\ Gao Xinjun, ``Woguo hangye shanghui de falu huanjing yanjiu--
dui Tianjin shanghui de diaocha'' (The legal environment of China's 
business associations--an investigation of Tianjin's chambers of 
commerce), paper presented at the Conference on Improving the 
Governance of Non-Official Chambers of Commerce, Wuxi, August 19-21, 
2005.
---------------------------------------------------------------------------
    Ironically, there is a Wenzhou Chamber of Commerce in Tianjin that 
has had fewer problems getting established and promoting the interests 
of its members than the Tianjin Apparel Chamber of Commerce. The 
Wenzhou Chamber of Commerce represents all the diverse interests of its 
members, so it (like its corresponding chambers of commerce in other 
cities of China) has not been forced to adhere to a ``one association, 
one industry'' rule. It is attached to the Wenzhou Office in Tianjin 
(Wenzhou shi zhu jin banshichu) and supervised by the Tianjin Office of 
Economic Cooperation (Tianjin shi jingji xiezuo bangongshi), so it has 
independent legal standing--the only non-official chamber of commerce 
approved by the Tianjin Civil Affairs Bureau. This suggests some 
loosening in the rules governing business associations in Tianjin, but 
it is likely to be a long time before there is major change.\5\
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
    In Wenzhou itself, however, business associations play a 
considerably larger role. Wenzhou, in southern Zhejiang province, has 
become famous for its promotion of private enterprise--and for its 
rapid economic development. But in the 1980s, as Wenzhou merchants 
began selling goods throughout China, they developed a reputation for 
turning out shoddy and counterfeit goods, undercutting not only other 
Chinese producers but also their fellow Wenzhou-ese. In 1987 both the 
city and its business community were shocked when angry residents of 
Hangzhou, the provincial capital, burned some 5,000 shoes in protest of 
their poor quality.
    It was precisely this incident that stimulated the formation of 
chambers of commerce in Wenzhou. The first chamber was the Lucheng 
District Shoe and Leather Industry Association (Lucheng xiege hangye 
xiehui), established in 1988 (and later renamed the Wenzhou Shoe and 
Leather Industry Association). The organizers of this association, 
despite the extensive history of business associations in Wenzhou, had 
little knowledge of previous business groups and less knowledge of how 
to proceed in contemporary China. They went to the Association of 
Industry and Commerce. A meeting of the Central Secretariat in December 
1987 had decided that the Association of Industry and Commerce would be 
renamed chambers of commerce (or general chambers of commerce) for 
external purposes (the Association of Industry and Commerce continued 
to exist as United Front organs under party and government control). 
This action recognized the importance of the Association of Industry 
and Commerce in guiding the development of private enterprise. In the 
case of Wenzhou, it was the Association of Industry and Commerce that 
harbored both the historical consciousness and the knowledge of the 
contemporary period, and thus it was the Association of Industry and 
Commerce that helped set up this first business association in 1988.
    The new association cooperated closely with government to address 
the problems confronting the industry. The government, in collaboration 
with the association, drew up the ``Management Regulations on the 
Rectification Quality of the Lucheng District Shoe and Leather 
Industry'' and the ``Provisional Regulations on After Sales Service of 
the Shoe and Leather Industry.'' Such measures, enforced through the 
association, gave new life to the industry.\6\
---------------------------------------------------------------------------
    \6\ Chen Shengyong, Wang Jinjun, and Ma Bin, Zuzhihua, zizhu zhili 
yu minzhu (Organized, self governance and democracy) (Beijing: Zhongguo 
shehui kexue chubanshe, 2004), p. 38.
---------------------------------------------------------------------------
    Other associations began to organize, but this progress was soon 
interrupted by Tiananmen and the political uncertainty that followed. 
When Deng Xiaoping made his ``southern tour'' in 1992, organizational 
activity in Wenzhou took off again. By August 2002 there were 104 such 
non-governmental business associations at the city level. In addition, 
there were another 321 associations at the county, county-level 
municipality, and district levels, with some 42,624 members covering 
most of Wenzhou's industrial enterprises.
    Some of these associations were, like those in Tianjin and Yantai, 
clearly affiliated with if not integrated into government. But others--
including the Lighting Chamber of Commerce, the Shoe and Leather 
Industry Chamber of Commerce, and the Apparel Chamber of Commerce--were 
initiated by the enterprises themselves. They grew up ``outside the 
system'' (tizhiwai), though they quickly developed good relations with 
the Association of Industry and Commerce. Unlike the associations in 
Yantai, where the government is responsible for most of the funding, 
most if not all associations in Wenzhou are self-funded. For instance, 
the Wenzhou Apparel Industry Chamber of Commerce (Wenzhou fuzhuang 
shanghui), perhaps the largest and most successful of the various 
industry associations in Wenzhou, began with only 10 enterprises in the 
early stages. The lead was taken by Liu Songfu, head of Golden Triangle 
Enterprise (Jin sanjiao gongchang). Although the Association of 
Industry and Commerce supported the establishment of the association, 
it provided no funds; the entire cost of running the association over 
the first years--some 100,000 yuan--was borne by Liu and a small number 
of other leaders.\7\
---------------------------------------------------------------------------
    \7\ Chen Shengyong, Wang Jinjun, and Ma Bin, Zuzhihua, zizhu zhili 
yu minzhu (Organized, self governance and democracy) (Beijing: Zhongguo 
shehui kexue chubanshe, 2004), p. 285.
---------------------------------------------------------------------------
    In the early years, the Apparel Chamber of Commerce, like other 
business associations, maintained very close relationships with 
political leaders. The deputy head of the Alliance of Industry and 
Commerce, Wu Ziqin, chaired the first Congress of the chamber of 
commerce, and a number of political leaders were named either honorary 
board members or senior advisors. The support of the Alliance of 
Industry and Commerce, which became the sponsoring unit (guakao danwei) 
of the new chamber of commerce, was necessary for the chamber's 
registration, its ability to secure office space, and ability to 
convince other enterprises to join. The authority of the Alliance also 
supported the chamber's efforts to enhance quality control.
    Over time, however, relations between trade associations and 
government have become more (but not completely) institutionalized. 
Personal relations between association leaders and government leaders 
remain close, but there has been a tendency for government officials to 
be less involved in the internal affairs of trade associations. 
Although the government still appoints a few trade association heads, 
77 percent report that they freely elect their chairmen in accordance 
with their own rules of operation.\8\ Moreover, the internal 
organization of trade associations--how many directors they have, how 
many committees they set up, and whether to organize training and 
consulting activities to raise funds for the association--seems to be 
free of government interference. Indeed, the fact that Wenzhou's trade 
associations receive no government funding makes them quite 
entrepreneurial. In addition to imposing membership dues, trade 
associations organize training classes to impart technical expertise 
and provide consulting services to raise funds. They also organize 
trade group trips abroad so members can learn about industry trends and 
relay the latest information and technical standards to colleagues back 
home.
---------------------------------------------------------------------------
    \8\ Yu Jianxing, Huang Honghua, and Fang Liming, Zai zhengfu yu 
qiye zhi jian-yi Wenzhou shanghui wei yanjiu duixiang (Between 
government and enterprise-looking at Wenzhou's chambers of commerce) 
(Hangzhou: Zhejiang renmin chubanshe, 2004), p. 286.
---------------------------------------------------------------------------
    The changing relationship between industry associations and the 
government may be symbolized by the Apparel Industry Chamber of 
Commerce. The chamber amended its charter in 2003 to specify that 
government officials should not be named as advisors.
    The reorganized Advisory Commission was composed of five 
prestigious entrepreneurs who had previously served as vice chairmen of 
the chamber.\9\ This change was not an assertion of chamber 
independence from government supervision so much as a reflection of the 
government's growing trust that this NGO could run its own affairs 
without running afoul of government concerns. Elections for leadership 
roles in chambers are becoming more competitive. The Apparel Industry 
Chamber of Commerce was the first to introduce cha'e elections (in 
which the number of candidates exceed the number of positions), and 
others have emulated the practice. Some have borrowed the practice of 
``sea elections'' (hai xuan) from village elections, allowing 
nominations for association head to be nominated freely by members. In 
2000, Liu Songfu, who spearheaded the establishment of the Apparel 
Industry Chamber of Commerce, was defeated by Chen Min, the leader of a 
new generation of entrepreneurs who have expanded the scope of chamber 
activities as well as its membership.
---------------------------------------------------------------------------
    \9\ Chen Shenggyong, et. al., Zuzhihua, zizhu zhili yu minzhu, p. 
294.
---------------------------------------------------------------------------
    Wenzhou's business associations even have a degree of influence 
over government policy. For instance, the regulations governing 
Wenzhou's shoe and leather industry, mentioned above, were a 
collaborative effort between the government and industry 
representatives. Similarly, the ``10th Five-Year Development Plan of 
the Wenzhou Apparel Industry'' was worked out by the Wenzhou Apparel 
Chamber of Commerce in coordination with the city's Economic 
Commission. During sessions of the local people's Congress and Chinese 
People's Political Consultative Conference (CPPCC), Wenzhou's chambers 
of commerce recommended 141 entrepreneurs to join those two bodies and 
raised 54 proposals. The General Chamber of Commerce (Association of 
Industry and Commerce) also organized members of the CPPCC to draft a 
proposal to create an industrial park.\10\ Trade associations have 
clearly given Wenzhou entrepreneurs a voice that they would not have 
had individually. Nevertheless, studies indicate that the influence of 
trade associations remains limited.\11\
---------------------------------------------------------------------------
    \10\ Yu Jianxing et. al., Zai zhengfu yu qiye zhi jian, p. 80.
    \11\ Chen Shenggyong, et. al., Zuzhihua, zizhu zhili yu minzhu, p. 
263.
---------------------------------------------------------------------------
    Although government officials have withdrawn, at least to some 
extent, from 
participation in trade associations, entrepreneurs are increasingly 
participating in politics, particularly in the people's congresses and 
Chinese People's Political Consultative Congresses (CPPCCs) at various 
levels. By 2003, a total of 421 members of 64 chambers of commerce 
participated in People's Congresses or CPPCCs, including 3 in the 
National People's Congress and 13 in the provincial people's 
Congress.\12\
---------------------------------------------------------------------------
    \12\ Chen Shenggyong, et. al., Zuzhihua, zizhu zhili yu minzhu, pp. 
229-230.
---------------------------------------------------------------------------
    Deliberative Democracy. North of Wenzhou, in the county-level city 
of Wenling, subordinate to the prefectural-level city of Taizhou, a 
system of ``deliberative democracy'' (xieshang minzhu) has been 
developing. This system of democratic consultative meetings (minzhu 
kentan hui) began in June 1996 when one of the townships under 
Wenling's jurisdiction, Songmen, held a meeting as part of a campaign 
to carry out ``education on the modernization of agriculture and 
villages.'' The people expressed no interest in yet another ``you talk, 
we listen'' campaign. Confronted with this apathy and resentment, local 
leaders decided to try something different. Instead of having the 
cadres on the stage speaking to peasants assembled below, they invited 
the peasants to take the stage and express their opinions. The meeting 
apparently became very lively and there was a direct interchange of 
views between the ``masses'' and the cadres.\13\
---------------------------------------------------------------------------
    \13\ Jia Xijin and Zhang Yun, ``Zhongguo canyushi minzhu de xin 
fazhan'' (A new development in China's participatory democracy), in Mu 
Yifei and Chen Yimin, eds., Minzhu kentan: Wenlingren de chuangzao 
(Democratic consultation: A creation of the people of Wenling) 
(Beijing: Central Compilation and Translation Press, 2005), pp. 80-93.
---------------------------------------------------------------------------
    As in most areas of China, there were a variety of tensions and 
problems that this new form of ``political and ideological work'' 
(which is what this forum started out as) addressed. There were 
tensions between the townships and the villages, between the cadres and 
the people, between the party committee and the government at the 
village level, and among cadres. What the leadership in Songmen 
township sensed very quickly was that by involving the people in 
discussions of public issues, different cadres and different interests 
were forced to communicate and compromise with each other. Moreover, 
real misunderstandings as well as a number of real but minor issues 
that affected relations between the people and the local leadership 
could be cleared up quickly and on the spot.
    For such political innovation to occur in China there must be both 
social circumstances conducive to change and political 
entrepreneurship. In the case of Wenling, the population was quite 
prosperous: in the urban areas per capita income is 12,651 yuan per 
year; in the rural areas, 6,229 yuan.\14\ Moreover, it is a population 
with quite a lot of physical mobility; of the 1.16 million residents in 
Wenling, some 200,000 are away from the city on a long-term basis. Such 
people, and those who travel for shorter lengths of time, bring back a 
greater democratic consciousness. The rapid development of Wenling's 
economy and the exercise of village autonomy in recent years had 
similarly stimulated the growth of democratic consciousness. Such 
developments stood in contrast with the non-democratic ways of making 
decisions, increasing tensions with the local cadres and making 
decisions difficult to 
implement.
---------------------------------------------------------------------------
    \14\ Dong Xuebing and Shi Jinchuan, ``Zhidu, boyi yu quanli 
chonggou'' (System, game, and the restructuring of power), in Mu Yifei 
and Chen Yimi, ed., Minzhu kentan, p. 107.
---------------------------------------------------------------------------
    Democratic consultations operate somewhat differently at the 
village and township levels. At the village level, in 1998 peasant 
representative congresses (nongmin daibiao dahui) began to be formed. 
Each production team (xiaozu) would select one or more representatives, 
depending on the size of the production team, and members of the 
village party committee and the village committee (the government side 
of village administration) are de facto members. In 1999, this system 
took on the name of ``village assembly'' (cunmin yishihui). This system 
has now spread throughout Wenling; of the villages under Songmen 
township, most convene an average of two assembly meetings per month. 
This system is regarded as an extension of the democratic consultation 
system.\15\
---------------------------------------------------------------------------
    \15\ Xiao Qing, ``Wenling cunyihui: Nituli dansheng Zhongguo xin 
xingtai minzhu zhengzhi'' (Wenling's village assemblies: A new form of 
democratic politics born from China's soil), in Mu Yifei and Chen 
Yimin, eds., Minzhu kentan, pp. 179-180.
---------------------------------------------------------------------------
    Many of these meetings revolve around public finance, one of the 
most contentious issues in rural China. In one village under Ruohuang 
township, these assemblies took on a much greater importance after the 
village head, who had been elected, used over 1 million yuan of public 
funds to gamble, which caused a strong reaction among the peasants. 
Previously they had trusted someone they had freely elected to manage 
finances honestly, but after this incident they did not trust anyone 
and insisted that matters of public finance be handled openly by the 
village assemblies. In addition to public finances, there are many 
issues that directly affect the interests of villagers in an area like 
Ruohuang township: urbanization brings issues of land requisitions, 
paving roads, environmental preservation, and so forth, all of which 
are taken up by the village assemblies.\16\
---------------------------------------------------------------------------
    \16\ Wang Junbo, ``Qiaoran bianhua de `xiangcun zhengzhi' '' (The 
silent change of `village politics'), in Mu Yifei and Chen Yimin, eds., 
Minzhu kentan, p. 193.
---------------------------------------------------------------------------
    At the township level, democratic consultations are really a system 
of open hearings on public policy. When the democratic consultation 
system began, discussions flowed from topic to topic, making resolution 
of any issue more difficult. After a while, it was decided that each 
democratic consultation should focus on a single issue. The topic for 
discussion is usually decided by the township party committee or 
government, though there are provisions that allow the public to 
petition to hold a meeting on a particular topic. The topic, time, and 
place of meeting are posted, and anyone is allowed to come, but no one 
(other than the leadership) is obliged to come. Democratic consultation 
meetings are generally held once a quarter.
    At least some democratic consultations do have an impact on public 
policy and implementation at the township level. For instance, a 
democratic consultation meeting was held in Wenqiao township in July 
2002 to discuss the leadership's plan to merge two school districts. 
The leadership believed that the merger would save funds and strengthen 
the academic level of the remaining school. But such a merger would 
affect residents in the district of the school being closed because it 
would increase transportation costs and living expenses for those who 
stayed in dormitories. Feelings ran very high. In the end, the 
leadership decided not to merge the two schools right away, but rather 
allow parents to choose which school to send their children to. Before 
long, the students enrolled in the weaker school began transferring to 
the better school, and the decision was effected without public 
outcry.\17\
---------------------------------------------------------------------------
    \17\ Jia and Zhang, ``Zhongguo canyushi minzhu de xin fazhan,'' p. 
82.
---------------------------------------------------------------------------
    Similarly, a meeting was held in Songmen township in January 2004 
to discuss the creation of a specialized market for products used in 
the fishing industry. Vendors of these products were scattered and 
often crowded into the streets, causing traffic problems. Residents 
were asked to discuss such issues as whether to build such a market, 
where it should be built, and who should invest in it. Several hundred 
people attended the meeting, and the final decision incorporated public 
references for the location of the district and the way in which 
investment would be handled.\18\
---------------------------------------------------------------------------
    \18\ Wang Junbo, `` `Caogen minzhu': zai zhiduhua de yangguangxia'' 
(`` `Grassroots democracy': Under the light of institutionalization''), 
in Mu Yifei and Chen Yimin, eds., Minzhu kentan, p. 190.
---------------------------------------------------------------------------
                         inner-party democracy
    Efforts to broaden participation within the party and to increase 
competition within the party go under the rubric ``inner-party 
democracy'' (dangnei minzhu), although the wider public is sometimes 
involved. The two main types of inner-party democracy that have been 
pursued are the party delegate ``permanent representative system'' 
(changrenzhi) and the ``public promotion, public election system'' 
(gongtui gongxuan). The former is being vigorously, if unevenly, 
promoted in many places; the latter largely restricted to the provinces 
of Sichuan and Jiangsu. Data on both are sketchy, but the outlines are 
clear.
    Changrenzhi. The Central Organization Department, following up on 
the call for political reform contained in the 13th Party Congress 
report, authorized 11 municipalities, counties, and districts in five 
provinces to experiment with something called the ``party Congress 
permanent representation system'' (dang de daibiao dahui changrenzhi). 
Although Mao Zedong had originally called for this change in 1956, it 
had never been implemented in a systematic way. The basic idea is that 
under ``democratic centralism'' the highest power in the party (at all 
levels) is supposed to flow from the party congresses, generally held 
once every five years. Those congresses select party committees (the 
Central Committee in the case of the national party congress), which 
then selects a standing committee. In theory, the party secretary and 
standing committee are subordinate to the party Congress and the 
delegates that make it up, but in fact the delegates to party 
congresses have no power derived from their positions. Many delegates 
are leading cadres at different levels, whose power and influence 
derives from the positions they hold, not their roles as delegates to 
the party Congress. Other delegates are chosen for their loyalty and 
service; being named a delegate is an honor, not a position of power. 
Delegates are generally uninformed as to the content of the party 
Congress or who they are to vote for until just before the Congress 
meets. As the saying put it, delegates ``The party committee decides 
personnel selections, and party members draw their circles'' (dangwei 
ding renxuan, dangyuan hua chuan). Their function as party 
representatives ends as soon as the party Congress ends. When another 
party Congress is held five years later, another group of 
representatives will be named. Power is thus centralized and top down, 
contrary to the provisions in the party constitution.
    Obviously the CCP has lived with this system for many years, but 
two concerns have led people to want to elevate the status of the party 
representatives and congresses. One is the power concentrated in the 
hands of the party secretary and standing committee has led to 
corruption and other abuses of power that have feed social protests and 
a general decline in the legitimacy of the party in recent years. The 
other is that even members of the party feel little benefit from their 
party membership, as they are excluded from information and 
participation, much as the general public is. In other words, there is 
a problem of the party leadership not only being alienated from the 
general public but also from the great bulk of the party membership. If 
the ``governing capacity'' of the party is to be improved (as party 
documents call for), then the party as a whole needs to be more 
functional and the party's legitimacy, both in the eyes of the party 
membership and the general public, needs to be raised.
    The changrenzhi attempts to address this issue first by having 
party representatives elected by members of the party (this has to be 
qualified by saying that this part of the changrenzhi is far from being 
universally implemented, though it has been in some places) and by 
having the representatives serve five-year terms, meeting in annual 
sessions. At such annual meetings, the relevant party committees are 
supposed to submit work reports for the review and approval of the 
party representatives. This is intended to increase the supervision 
over the work of the party 
secretary and standing committee. The scope of the authority of the 
party representatives is one of the issues currently being debated 
within the party.
    Jiaojiang district in Taizhou municipality in southern Zhejiang 
province was one of the places that began implementing the changrenzhi 
on an experimental basis in 1988. In this case, representatives are 
divided into ``representative groups'' (daibiaotuan) based on locality 
or functional group. Each representative group has a head and a deputy 
head. The function of the groups is to organize discussion, think about 
personnel selection, and to propose resolutions. The leadership of the 
representative groups links the representatives to the party 
leadership. In the case of Jiaojiang, the district established a 
permanent organ, called the Work Office of the Party Congress Permanent 
Representatives, to maintain contact between the leadership of the 
representative groups and the ordinary representatives. The office 
publishes a bulletin periodically (about once a month). There is now an 
annual meeting of the party representatives that listens to work 
reports by the local party leadership and discipline inspection 
committee.\19\
---------------------------------------------------------------------------
    \19\ ``Jianli he wanshan xian (shi, qu) dang de daibiaohui 
changrenzhi gongzuo de diaocha yu sikao'' (An investigation and 
thoughts on establishing and perfecting the party Congress permanent 
representation system in counties (municipalities and districts), in 
Xin shiqi dang jianshe gongzuo redian nandian wenti diaocha baogao (A 
survey report on hot topics and difficult questions in party building 
work in the new period), pp. 232-235.
---------------------------------------------------------------------------
    As party representatives become more important, their selection 
must be considered more carefully. In the case of Jiaojiang district, 
the number of representatives was cut by a third, from 300 to 200, and 
the number of electing units has been increased so that representatives 
are better known to their ``constituents.'' Efforts have been made to 
increase the number of nominations compared to representatives 
selected. This has generated better-educated representatives, according 
to statistics from Taizhou (the changrenzhi experiment was recently 
extended throughout Taizhou).\20\
---------------------------------------------------------------------------
    \20\ Ibid., pp. 237-239.
---------------------------------------------------------------------------
    Perhaps one of the most important issues raised by the permanent 
representative system is the relationship between ``leading cadres'' 
and representatives. Leading cadres at a given level normally make up a 
large percentage of the representatives selected to attend a party 
congress, often around 70 percent. Recommendations call for keeping 
this number down to around 60 percent. So one impact of the permanent 
representative system appears to be an expansion of the number of 
people able to participate in party affairs--but not by a large margin.
    Ya'an city, Sichuan province, began experimenting with the 
changrenzhi in the winter of 2002-2003, when end-of-term elections for 
local cadres were coming up and when the Sixteenth Party Congress had 
just endorsed expansion of the changrenzhi. Ya'an city selected two 
places, Rongjing County and Yucheng District, to try out the new 
system. The major breakthrough made in these experiments was making all 
candidates for party representative to face election by all party 
members in the area. In the case of Yucheng district, 12 percent of all 
party members were nominated, and in Rongjing County, 13 percent were 
nominated. These ``primary candidates'' were then reduced to ``formal 
candidates'' through a process of screening (candidates must meet 
certain age and work requirements) and voting. By local regulation, 
there had to be at least 20 percent more candidates than positions for 
the final elections. Each candidate gave a three-minute speech, and 
voting was by secret ballot. Six leading cadres were not elected as 
party representatives. According to local regulations, when a leading 
cadre loses an election, he or she can still attend the party Congress 
as a ``special delegate'' (a way of saving face?), but six months after 
the election the party Organization Department organizes a poll of 
party members in that cadre's district. If the cadre cannot get the 
backing of two-thirds of local party members, then he or she is removed 
from office. This is precisely what happened to the party secretary of 
one village.\21\
---------------------------------------------------------------------------
    \21\ Xiang Guolan, ``Tuijin dangnei minzhu de zhidu cuangxin--Ya'an 
dang daibiao dahui changrenzhi anli fenxi'' (institutional innovation 
in the promotion of inner-party democracy--An analysis of the case of 
Ya'an's party representative Congress permanent representative system), 
in Yu Keping, ed., Zhongguo difang zhengfu chuangxin--Anli yanjiub 
aogao (2003-2004) (Innovations in China's local governmental system--
Case study reports, 2003-2004), pp. 175-199.
---------------------------------------------------------------------------
    Public Recommendation and Public Election.\22\ Sichuan began 
experimenting with the gongtui gongxuan (public recommendation and 
public election) system in 1995. It was an obvious outgrowth of the 
social tensions in that relatively poor inland province. In 1993, 
Renshou county experienced what was until then perhaps the largest 
outburst of mass protest and rioting. Economic growth was not a viable 
path to social stability, at least in the short run, so the province 
began experimenting with political reform. The gongtui gongxuan system 
started in 1995 in Nanbu County. At the time, there were about 20-30 
cases. In 1998, the well-known Buyun election took place under Suining 
City. Despite the issuing of a ruling that said that the Buyun election 
was unconstitutional, the gongtui gongxuan system continued to spread 
in Sichuan (though it did not, like the Buyun election, extend to all 
the voters). In the 2001-2002 term elections, there were about 2,000 
cases. That is about 40 percent of Sichuan's counties. It should also 
be noted that the system was more readily adopted in economically 
backward places where social tensions were high and the political 
leadership had no chance of competing on the basis of economic growth.
---------------------------------------------------------------------------
    \22\ This section is based on Lai Hairong, ``Jingzhengxing xuanju 
zai Sichuan sheng xiangzhen yi ji de fazhan'' (The development of 
competitive elections in Sichuan at the township level), in He Zengke 
et. al., eds., Jiceng minzhu he defang zhili chuangxin, pp. 51-108.
---------------------------------------------------------------------------
    The basic pattern of the gongtui gongxuan system was to enlarge the 
number of people participating in the selection of township heads and 
deputy heads. In the past, such decisions were made by the standing 
committee of the county. But under the gongtui gongxuan system, the 
number of voters was expanded to include:

    <bullet>  All staff of the township (about 80-120 people),
    <bullet>  The top three cadres from each village under the township 
(so if there are 10 villages, that would be 30 people),
    <bullet>  The heads of the small groups (xiaozu) in villages 
(usually 5 per village, so about 50 people, and
    <bullet>  Delegates to the township people's Congress (perhaps 30-
50 people).

    In addition, the county sends 5-20 delegates. In the past, these 
were super delegates with 40-60 percent of the vote. But in some places 
now, they are beginning to implement a ``one person, one vote'' rule.
    So, in total, some 200-300 people participate in the selection 
process. This is still a very limited electorate, but nevertheless a 
considerable expansion from the half dozen county officials who used to 
make these decisions. It also has to be noted that in some elections, 
the system has been extended to include the party secretary and the 
electorate has been expanded to include the whole population. It is not 
clear how many townships have undertaken such extensive reforms, but 
they still make up a small minority.
                              implications
    The discussion above is intended to be illustrative rather than an 
exhaustive cataloguing of the changes that are being experimented with 
at the local level in China. There are other systems that have been 
used: the ``two ballot system'' in Shanxi, the ``one mechanism, three 
transformations'' in Hebei, and the growing role of owners' 
associations in some parts of the country, to name a few. The role of 
local people's congresses also seems to be growing. These changes do 
not, or do not yet, amount to a fundamental change, much less a 
democratization of local governance in China, and, looking at the 
country as a whole, these innovations appear to be spotty and uneven. 
But they do reflect the pressures that are being felt--sometimes by 
local officials themselves, and sometimes by central authorities who 
want to better monitor local agents--to change local governance, 
including the role of the party at the local level. One way of thinking 
about these changes is to note that they mark a preliminary effort to 
try to integrate the horizontal linkages found in local society with 
the hierarchical nature of the party. That seems an impossible task in 
the long run, but there are clearly pressures to change the way the 
political hierarchy interacts with local society.
    Another way of looking at these changes is that they mark efforts 
to move ``political reform'' up the hierarchy in ways that do not 
require elections (at least elections that are open to the general 
public) at levels higher than that of the village. Thus, democratic 
consultation meetings take place at the township level, as do gongtui 
gongxuan elections and the changrenzhi. Business associations in 
Wenzhou influence policy at the county and city levels.
    It can be debated whether these reforms are steps on the way to 
democracy or whether they are ways of putting off democracy, perhaps 
indefinitely. China seems to be striving for ways to implement a system 
that simultaneously provides the state with feedback on the performance 
of its local agents, checks the power of those local agents, expands 
participation in local governance, and generates better governance--all 
without Western style democracy.
    It should be noted that these reforms are in their infancy and 
there seems to be at present little ``spill over'' from one area of 
reform to another or from one location to another. For instance, most 
observers think that ``civil society'' is more developed in Wenzhou 
than in Wenling, but it is Wenling that has adopted the more 
interesting political reforms. This seems to be, in part, a reflection 
of the levels they are at in the political system. Wenling is a county-
level city of 1.6 million under the jurisdiction of Taizhou 
municipality; Wenzhou is a city of over 5 million that is directly 
administered by the province. Obviously political reform efforts in 
such a major city (and one already known for its ``Wenzhou model'') 
would have ramifications that reforms in Wenling do not. This 
distinction only underscores the fact that even as localities pursue 
reforms of various sorts, the choice of what area pursues what type of 
reform is a very political decision, not simply a reflection of social 
pressures from below.
    What seems to be clear, however, is that these reforms have been 
growing in number and depth over the course of the last decade, and 
they can be expected to continue as local society continues to develop 
and as China continues to face social tensions.
                                 ______
                                 

                     Prepared Statement of Xie Gang

                              may 15, 2006

                 Rural Government Reform and the People

    Over the past four years, with private and US government funds, The 
Asia Foundation has implemented a series of programs in the rural areas 
of China which aim to improve rural governance and explore solutions to 
reconcile the disputes between the farmers and local governments, 
especially at the township level. The program results have been the 
basis for policy recommendations which Foundation partners have 
submitted to the Chinese central government over the past two years.
                           program summaries
    The programs are designed to explore the causes of conflict and how 
local initiatives and citizen participation can help to solve disputes 
through specific activities:

<bullet>  Survey the main causes of conflict between farmers and local 
government officials

    This program was implemented before the Chinese government started 
to rescind the agricultural tax, which alleviated many of the 
frustrations expressed by the farmers described below.

        --Tax/fee collection causes the most common and severe 
        conflicts. The most common answer to the question of how to 
        improve the cadre-farmer relationship is ``stop collecting 
        taxes and fees.''
        --Cadre corruption has been, and continues to be, one of 
        foremost frustrations among farmers.
        --Farmers often complain of inadequate provision of public 
        services, such as low quality or high cost in the construction 
        of roads, primary schools, electricity network and water 
        conservancy projects.
        --The government-mandated production of specific crops also 
        aggravates farmers. For example, farmers intending to grow 
        grain may be forced to grow watermelon. There have been cases 
        when farmers destroy seedlings to avoid cultivating crops they 
        do not want to grow. Conflicts are also caused by failure to 
        follow the procedure in village elections or between the new 
        and retiring committee directors and members. Many farmers 
        complain that the township Party Secretaries manipulate the 
        selection of candidates and the selection process is not 
        transparent.

<bullet>  Explore organized mechanisms for farmers for fundraising and 
management of public services

    The program provided a small fund to two villages where neither the 
Party branch nor village committee was functioning properly, to build a 
road and a small irrigation canal. Over the course of the program, the 
program team helped farmers develop a set of simple rules and 
procedures for electing the management team, raising funds from the 
farmers, mobilizing free labor from the village, and maintaining 
transparent accounting books. This project serves to illustrate to the 
local government that conflicts can be reduced if the government is 
accountable in providing quality public services and maintaining 
transparency.

<bullet>  Train farmer representatives (nengren)

    In this program, some 700 farmers and 100 township employees joined 
in the training. Training courses are provided for farmer delegates to 
the local people's congress, farmers who handle complaints and 
petitions among their peers, and farmer activists to provide them with 
basic knowledge regarding the laws, regulations, policies and their 
responsibilities to supervise the government. The training encourages 
these groups to observe relevant laws when they complain or petition 
the government, rather than inciting violence. Local government 
employees are also recruited to the training courses where they and 
farmers improve mutual understanding and interactions.
    As part of the program, a pilot program was run to assess the 
performance of the government employees. Twenty farmer representatives 
were recruited to take part in the assessment. This part of the program 
introduces and tests an instrument which the farmers can supervise the 
local government staff. The hypotheses is that government staff will 
try not to frustrate the farmers if farmers are allowed to participate 
in performance reviews, which is a major indicator for the staff's 
promotion and higher salary levels.

<bullet>  Survey types of existing farmers' associations

    This survey, conducted in 12 provinces in 2004, reveals that there 
are four types of farmers' associations. Some of them have been allowed 
to register with the local government, but the majority must struggle 
to survive. The key members of the association see themselves as the 
spokesmen of the farmers. The four types of farmers' associations are:

        --Associations that help farmers better understand laws and 
        policies. They also help farmers protect their rights by 
        writing complaint letters to higher level government.
        --Associations that aim to protect farmers' rights. Some of 
        them are well organized and have by-laws. The main purpose of 
        these associations is to represent farmers in the protests to 
        ``alleviate burdens.''
        --Associations that are established to help farmers improve 
        production.
        --Associations that are established for specific purposes; for 
        example, when relocated farmers lose their land but receive 
        minimum compensation.

<bullet>  Establish farmers' production cooperatives

    Although the program technically aims to assist farmers in setting 
up production cooperatives, the ultimate goal is to help farmers 
protect their rights. Three farmers' cooperatives have been set up with 
the assistance of the program team.

<bullet>  Establish community-based service organizations

    An association for the senior citizens has been set up with the 
help of the assistance. The program is still going on.
    The last two projects are both pilot programs that explore patterns 
of farmers' organizations. They help farmers initiate coordinated 
production or provide services that local governments fails to provide. 
It will take considerable time for such organizations to expand, and 
show widespread impact of the program.
                              observations
<bullet>  Most of the township governments are challenged with shortage 
of revenue. Roughly 70 percent of them are in debt. Some of them cannot 
even pay their staff salaries for periods of three to six months. Such 
financial shortages have been intensified by the retraction of 
agricultural tax. Yet, each township government is a parallel structure 
of the higher levels of government, and therefore tends to be 
overstaffed. The primary job of the township government becomes 
survival rather than running the township. Even though the central 
government has instructed that no extra levies be imposed on farmers 
after the agricultural tax is totally rescinded in 2006, township 
government will have to refer to collecting some type of fee or tax to 
maintain their revenue, and their effort to impose new types of fees 
may cause a new round of conflicts with farmers. Regardless, they will 
have no time or energy to improve local governance.
<bullet>  Township governments have lost their sense of direction. They 
carry huge debt loads, yet while they realize problem issues, such as 
the inefficiency of an overstaffed government, there is no way the 
system can be streamlined. They now rely totally on the allocation of 
budgets from the county government because they have very limited 
income resources. Township officials are unsure as to what policies the 
central government will formulate regarding the future of township 
government.
<bullet>  Township governments tend to be selective when democracy is 
introduced in the villages. The government cadres in general do not 
believe that farmers are educated enough to exercise their rights 
within a democratic system. However, they refer to democratic means 
when they believe such an effort can prevent or reconcile conflicts 
that may arise. Farmers, on the other hand, do not show intense 
interest in reforming the township government except for a few 
activists or those whose rights and interests have been disrupted by 
the township government. Most of the farmers tend to be satisfied so 
long as they are left alone without being bothered with taxes or fees, 
and cadres remain impartial over matters like land and public 
facilities, and are not involved in corruption.
                              conclusions
<bullet>  No drastic political reform should be expected in the near 
future as too many interconnected issues are involved. Streamlining of 
the township government would mean a large number of employees need to 
be laid off. Without well conceived or coordinated reemployment 
schemes, they may join farmers on petition trips.
<bullet>  Rural governance can only be improved within the current 
political framework by strengthening the measures to monitor government 
by the local Congress and farmers' organizations.
<bullet>  Chinese rural governments have no impetus to initiate their 
own reform, even though there is significant demand for reform from 
individuals within the local government. Reform can only be initiated 
by outside pressure, namely from farmers.
<bullet>  The central government's current rural policies cannot solve 
the fundamental problem of governance in the rural areas. They may 
pacify farmers for certain periods, but they do not offer long term 
solutions. Given all the problems that the township government faces, 
and the fact that most of them are not fully functioning, the policies 
may not be effectively implemented. Without redefinition of township 
government's functions or thorough reform, sound rural governance may 
not be possible.

                                 <all>

</pre></body></html>
